<html>
<title> - FROM COALITION TO ISAF COMMAND IN AFGHANISTAN: THE PURPOSE AND IMPACT OF THE TRANSITION</title>
<body><pre>[Senate Hearing 109-917]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-917
 
FROM COALITION TO ISAF COMMAND IN AFGHANISTAN: THE PURPOSE AND IMPACT 
                           OF THE TRANSITION

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED NINTH CONGRESS



                             SECOND SESSION



                               __________

                           SEPTEMBER 21, 2006

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                      U.S. GOVERNMENT PRINTING OFFICE
36-091 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 










                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  









                            C O N T E N T S

                              ----------                              
                                                                   Page

Chaffe, Hon. Lincoln, U.S. Senator from Rhode Island.............    23
Dodd, Hon. Christopher, U.S. Senator from Connecticut............    14
 Feingold, Hon. Russell D., U.S. Senator from Wisconsin..........    24
Hagel, Hon. Chuck, U.S. Senator from Nebraska....................    17
Jones, Gen. James L., Jr., USMC, Supreme Allied Commander, Europe 
  (SACEUR), Supreme Headquarters, Allied Powers Europe, Mons, 
  Belgium........................................................     3
    Prepared statement...........................................     8
Kerry, Hon. John, U.S. Senator from Massachusetts................    20
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Rubin, Barnett R., Director of Studies and Senior Fellow, Center 
  on International Cooperation, New York University, New York, NY    29
    Prepared statement...........................................    33
Sarbanes, Hon. Paul R., U.S. Senator from Maryland...............    43
Voinovich, Hon. George V., U.S. Senator from Ohio................    26

                                 (iii)

  


 FROM COALITION TO ISAF COMMAND IN AFGHANISTAN: THE PURPOSE AND IMPACT 
                           OF THE TRANSITION

                              ----------                              


                      THURSDAY, SEPTEMBER 21, 2006

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Richard G. 
Lugar (chairman of the committee) presiding.
    Present: Senators Lugar, Hagel, Chafee, Voinovich, 
Sarbanes, Dodd, Kerry, and Feingold.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. This meeting of the Foreign Relations 
Committee is called to order.
    Today the committee meets to discuss the situation in 
Afghanistan and the role being played by NATO's International 
Security and Assistance Force, ISAF. We are honored to welcome 
our good friend, General Jim Jones, Supreme Allied Commander, 
Europe, to share his insights on NATO's operations in 
Afghanistan. General Jones has testified several times before 
our committee, most recently in February of 2006. As always, we 
look forward to engaging him on a topic of critical importance 
to United States national security.
    Recently Taliban attacks in Afghanistan have occurred with 
greater frequency and coordination. They have extended well 
beyond the south and east, where most of the fighting has been 
located. Although the hunt for al-Qaeda terrorists continues, 
the primary threat to the stability of Afghanistan is Taliban 
insurgents who are challenging NATO forces in greater numbers, 
sowing dissent among Afghans, cooperating with narcotics trade, 
and complicating security efforts in ways that inhibit the rule 
of law and reconstruction.
    The Afghan people suffered under the Taliban. Most Afghans 
have welcomed the advances in personal freedom, political 
participation, and educational opportunities that have come 
during the last 5 years. The recent increase in violence in 
Afghanistan clearly is not evidence of a popular uprising, but 
to the degree that there is discontent, disillusionment, or 
fear among the Afghan people due to their security situation, 
trust in the Afghan Government and NATO will dissipate.
    Insecurity stemming from insurgent activity by Taliban 
forces also causes Afghans in some regions to seek the 
protection of tribal leaders and warlords, which in turn 
undercuts the authority of the Afghan Government and increases 
the risk of civil conflict between tribal factions.
    Given these dynamics, we must dispel any doubts about the
commitment of the West to Afghans' emergence as a stable and 
free society. With this in mind, it is imperative that NATO 
countries fulfill their commitments to Afghanistan. NATO is 
assuming increasing responsibility for this difficult mission. 
NATO has long provided security in the north and west of 
Afghanistan. Last month ISAF added the critical southern region 
to its responsibilities. The eastern sector of Afghanistan is 
scheduled to be turned over to ISAF by year's end.
    However, the recent reluctance in NATO capitals to meet the 
requests of alliance leaders for troops and resources has 
complicated this process. Following many months of intensive 
discussions with allies, last week General Jones publicly 
called for an increase in NATO forces in Afghanistan. His voice 
was echoed by NATO Secretary General Jaap de Hoop Scheffer, who 
commented, and I quote: ``I want to ask nations to do what they 
promised, and we're not there yet.'' End of quote.
    General Jones estimated that an additional 2,500 NATO 
troops would be needed for ISAF. Thus far Poland's offer of 
1,000 initial troops is the only concrete response to that 
appeal.
    There should be no doubt that Afghanistan is a crucial test 
for NATO. The September 11 attacks were planned in Afghanistan. 
Al-Qaeda still operates there and the fate of the country 
remains symbolic. If the most prominent and successful alliance 
in modern history were to fail in its first operation outside 
of Europe due to lack of will by its members, the efficacy of 
NATO and the ability of the international community to take 
joint action against the terrorist threat would be called into 
question. Moreover, Afghanistan has a legitimately elected 
government and a long-suffering people, both of which deserve a 
chance to succeed without the threat of violent upheaval.
    The time when NATO could limit its missions to the defense 
of continental Europe is far in the past. With the end of the 
cold war, the gravest threats to Europe and North America 
originate from other regions of the world. This requires 
Europeans and North Americans to be bolder in remaking our 
alliances, forging new structures and changing our thinking. We 
must reorient many of our national security institutions, of 
which NATO is one of the most important. To be fully relevant 
to the security and wellbeing of the people of its member 
nations, NATO must think and act globally.
    I believe strongly that NATO is capable of meeting those 
challenges in Afghanistan. NATO commanders have demonstrated 
that they understand the complexity of the mission. They know 
that success in Afghanistan depends on the attitudes of the 
people, the progress of reconstruction, and the development of 
the economy as much as it depends on battlefield successes.
    The NATO commanders must have the resources to provide 
security and they must have the flexibility to use troops to 
meet Afghanistan's most critical security needs.
    Beyond NATO, it is vital that the Afghan Compact which was 
signed by 60 members of the international community and the 
Afghan Government be fully funded and implemented. This compact 
established a relationship whereby donors would sustain support 
for the Afghan Government while it implements its national 
development strategy.
    We look forward to hearing from our witnesses about how 
NATO is responding to recent Taliban tactics. We also would 
like to learn how NATO forces are coordinating with 
independently led United States troops and the Afghan army. 
What role will U.S. forces and the coalition play when ISAF 
takes over the final sector? We are also interested in how NATO 
is addressing the challenges of accelerating reconstruction and 
contending with the growing drug trade.
    After the testimony of General Jones, we will hear from a 
second witness, Dr. Barnard Rubin, Director of Studies and a 
Senior Fellow at the Center on International Cooperation at New 
York University. Dr. Rubin is a leading expert on Central Asia 
and state-building. Among other roles, he has served as special 
advisor to Lakhdar Brahimi, the United Nations Special 
Representative of the Security General for Afghanistan. United 
States Senators have had the benefit of his counsel through the 
Aspen Institute program very recently.
    We welcome our witnesses. We look forward to an 
enlightening discussion. I would just simply say, General 
Jones, we are so pleased that you are here. We are hopeful this 
will not be your last appearance as our General in charge of 
this situation. If it is, why, it is a very special time. But 
would you please proceed. Your statement will be made a part of 
the record in full and please proceed in any way that you wish.

STATEMENT OF GENERAL JAMES L. JONES, JR., USMC, SUPREME ALLIED 
COMMANDER, EUROPE (SACEUR), SUPREME HEADQUARTERS, ALLIED POWERS 
                     EUROPE, MONS, BELGIUM

    General Jones. Mr. Chairman, thank you very much. As you 
know from our long association, this is really a personal 
pleasure as well as a professional responsibility to be here. I 
thank you and the committee for giving me this time to talk 
about NATO's most ambitious undertaking perhaps in the history 
of the alliance, certainly one of the most interesting ones and 
one of the most challenging ones.
    Just by way of opening comments, Mr. Chairman, may I just 
call your attention to the slide that I have put up there just 
to introduce what NATO is doing operationally in this very 
dynamic and interesting new century. Out of area for NATO now 
means considerably more than it ever did in the past. We have 
38,000 NATO soldiers deployed today on three different 
continents, from the Baltics, where we do an air policing 
mission, to a 16,000-man unit keeping a safe and secure 
environment in Kosovo under KFOR, with three NATO headquarters 
elsewhere in the western Balkans, a very--Active Endeavor, a 
very important mission called Active Endeavor in the 
Mediterranean--which is NATO's only Article 5 mission, a 
counterterrorism mission, very successful in keeping the 
Mediterranean as free as possible from terrorist activities and 
asymmetric threats that face us all; a small mission, but 
helpful mission, in support of the African Union in Darfur, 
where we do capacity building and strategic lift of African 
troops into that sad region; a very helpful mission in Iraq, 
where we not only train aspiring Iraqi officers in an academy 
setting, but also provide a very helpful mission in equipping 
the Iraqi army and helping coordinate the education and 
training of and assistance to Iraqi military in different 
capitals around the world in the alliance.
    We also have a NATO response force that is arguably NATO's 
most transformational operational capability coming into being 
this year, strategic reserve forces and operational reserve 
forces on standby. This brings us full circle to ISAF in 
Afghanistan.
    The ISAF mission, as you know, started in 2003 with our 
situation in the capital, a small footprint. We expanded to the 
northern region in 2004, then to the west in 2005, and on 1 
July of this year we took responsibility for the southern 
region from the coalition. In the not too distant future, I 
feel confident that NATO will also expand to the eastern 
region, which will complete the circle, if you will, in a 
counterclockwise manner, and NATO will have responsibility for 
stability and security through the totality of the land mass of 
Afghanistan, with a very special relationship with Operation 
Active Endeavor, which will be the United States-led coalition 
that will keep a separate and distinct mission at the higher 
end of the counterterrorist operation. While the rest, all of 
us in Afghanistan, have to practice counterinsurgency, the 
counterterrorism mission, which is more kinetic and mostly 
focused along the borders, will continue under a United States-
led coalition under the leadership of General John Abizaid of 
the United States Central Command.
    I might point out that in getting to this state we have had 
nothing but good relations and great teamwork between NATO 
forces and the United States Central Command and all of its 
subordinate commands in achieving this state of affairs and the 
situation that we currently find ourselves in in Afghanistan. 
It has been a model of teamwork, cooperation, of comrades in 
arms working together to solve very difficult problems, and I 
am quite confident that it will continue that way in the 
future.
    Over the last 60 days since the transfer of authority to 
NATO of the southern region, opposing militant forces have 
tried to test NATO to see if we have the will and the 
capability to stand and fight, and the evidence is in. The 
overwhelming answer is yes. This past weekend we concluded 
Operation Medusa, which was an operation that was necessary in 
order to not only defeat the insurgents located in the vicinity 
of Kandahar, but also necessary to do so in order to establish 
the conditions of reconstruction and development activities to 
move forward in the province. This was a multinational 
operation in southern Afghanistan, involving forces from 
Canada, the United Kingdom, The Netherlands, Romania, the 
United States, Denmark, and Estonia, and Poland--I am sorry, 
and Portugal. They have performed extraordinarily well.
    We always pause to honor the ultimate sacrifice that our 
soldiers make on the battlefield and this battle was no 
exception. There were casualties. There were NATO soldiers 
wounded and killed, and we would like to express our 
condolences to the families and to the countries who provided 
such gallant, gallant young people who willingly went to this 
distant land to try to make matters better for people who have 
not had much hope and not had much opportunity. Their sacrifice 
makes us want to redouble our efforts to make sure that we do 
achieve success in Afghanistan so that their sacrifice will 
have been worth it.
    While we have been engaged in offensive operations in the 
southern region since the beginning of our responsibility 
there, I believe that the reason this happened was simply 
because this was a region where permanent troops had never been 
seen before, and as NATO has committed to put 6,000 troops on 
the ground and is in the process of doing that we found that in 
this particular region, which is the traditional home of the 
Taliban, a sector of the country where opium production, 
narcotic trafficking, is at the epicenter of the effort, it is 
a region that was defined by criminality and lawlessness, many 
ineffective or corrupt national leaders at the regional level, 
ineffective police, and lack of presence of the Afghan army.
    In short, this was a part of the country that had not seen 
the benefits of reconstruction and the people who have an 
appetite for such reconstruction I think were very happy to see 
the force come in. But before we could start the reconstruction 
we had to engage in this test I think that NATO was subjected 
to, and that they passed brilliantly and successfully.
    I do believe, Mr. Chairman, as you and I have talked 
before, that ultimate success in Afghanistan is not simply a 
military one. We are working with the international community 
and the Karzai Government to make sure that our military 
efforts are immediately followed very quickly with 
reconstruction and development activities in order to meet the 
expectations of the Afghan people, who have demonstrated in two 
national elections, one for President and one for parliament, 
that they overwhelmingly understand this effort and they are 
overwhelmingly anxious to see the benefits of their new-found 
freedoms and opportunities.
    It is clear from the outset that progress in education, 
agriculture, economic development, public services, and health 
has to go hand-in-hand with providing a stable and secure 
environment. The
Afghan authorities and ISAF are now focusing on the key tasks 
of ensuring that reconstruction and development can take place 
in accordance with the priorities identified by the local 
authorities themselves.
    I would like to put up a third slide just to briefly 
capture the effort that nations are making in Afghanistan. We 
have 37 nations involved in this mission, approximately 20,000 
NATO troops committed. Most of it is under the command and 
control of NATO, with a small percentage remaining under 
national control, and these would simply be the national 
support elements.
    But I think 37 countries, united in this manner to do this 
very important mission at this particular time in NATO, is 
extremely impressive, and we can only celebrate this coming 
together of nations to do this very important task. And I am 
quite confident that we are going to be successful.
    One of the most important aspects of the long-term security 
in Afghanistan is the development of the Afghan national 
security forces, both the Afghan national army and the Afghan 
national police. By far the Afghan national army is the most 
successful pillar of our reconstruction efforts to date. I 
would like to move to another slide and show you essentially 
five of the main pillars of security sector reform and say a 
few words about each one if I might.
    Today the Afghan national army is about 30,000 strong and 
playing a pivotal role in the security of Afghanistan. Our 
commitment is to produce an army of approximately 70,000 
soldiers. I believe, we believe, that this is the essential 
goal and we are on our way to achieving it.
    NATO nations recognize the importance of this mission and 
have begun fielding NATO operational, mentor, and liaison 
teams, or OMLTs, that are similar to and will augment the U.S. 
embedded training teams. Currently NATO has 15 such teams 
offered by troop contributing nations, with 7 of them 
completely fielded and 17 more remaining to be fielded.
    Additionally, NATO is working on a proposal to provide 
additional equipment and training to the Afghan national army. 
This effort will be similar to our efforts in Iraq and will be 
an additive to the United State's ongoing efforts to train and 
equip the Afghan national army. The more rapidly we can build a 
capable and sufficiently robust Afghan national army, the 
faster we will have conditions for success.
    On this score, may I say that it is evident to me and to 
soldiers in the field that the Afghan people are proud of this 
developing army. They identify with it and the Afghan army has 
not done anything but contribute to its reputation as an 
emerging strong and capable institution in Afghanistan.
    The ISAF contribution to the Afghan national police 
training remains within means and capabilities, as detailed in 
our operations plan. While we are making some progress, it is 
my judgment that much more needs to be done in the training of 
police forces to make sure that we bring adequate equipment, 
adequate training, sufficiency in numbers, adequate pay, we 
fight against corruption. We need more emphasis on this very 
important pillar.
    With regard to judicial reform, judicial reform is not a 
NATO task in Afghanistan, but it is so important to everything 
that is going on in Afghanistan. I must emphasize that judicial 
reform is one of the pillars that needs probably the most 
attention in the shortest amount of time. Some progress has 
been made, but the courts and prosecution remain distrusted, 
overly corrupt, and resource starved. One of the problems with 
judicial reform is the low pay of prosecutors, which makes them 
susceptible to corruption.
    I recently had a meeting with the attorney general of 
Afghanistan, who told me that prosecutors' average pay was $65 
a month. By comparison, an interpreter working for the United 
Nations makes 500 euros a month. This is simply a situation 
that cannot be allowed to stand if we are serious about 
judicial reform.
    A top Afghan judge earns less than $100 a month and that is 
less than it costs to rent an apartment in Kabul, which now 
averages about $150 to $200 a month, considerably less than 
Taliban are paying local youths to support their military 
operations, which is estimated at $250 a month. With such 
disincentives, the temptation for corrupt practices will 
continue. So along with police reform and much more effort, 
judicial reform to me stands out as one of the key pillars that 
needs to be reenergized.
    Finally, perhaps the overarching problem and the one that 
worries me the most is the problem of narcotics. Afghanistan 
does not need to be a narcostate, but it is unfortunately well 
on its way. The parts of Afghanistan which are currently 
producing the largest poppy crops are not those that are 
traditionally known for the growth of such a product. We need 
to find the right means to ensure that farmers can economically 
grow and sell legal produce, in addition to developing an 
overarching and understandable way ahead in the overall fight 
against narcotics.
    Ninety percent of the narcotics products find their way to 
European capitals, are sold in the European markets. The money 
comes back to Afghanistan and other places where terrorism is 
evident and manufactures the IEDs and kills or wounds our 
soldiers.
    U.N. estimates suggest that the crop this year will exceed 
previous levels by as much as 59 percent. So this is a problem 
and a situation that is going in the wrong direction.
    If I could make just simply one wrap-up statement, that 
training the police forces, jump-starting the judicial reform, 
and developing an effective counternarcotics program are hand-
in-hand three of the most important things that need to be done 
in Afghanistan in the near future.
    There is a need for ever-closer cooperation and 
coordination between NATO and the Government of Afghanistan, 
the other nations involved in security sector reform, as well 
as governmental and nongovernmental organizations operating in 
the country. President Karzai has recognized this and created a 
policy action group to act as a key policy and decision making 
body. This body is Afghan-led and chaired by the president. It 
strives to coordinate the actions of the government, the 
international community, in an effort to achieve mutual support 
and much greater effect than was achieved previously.
    The policy action group is designed to reach down to the 
provincial, district, and community level in order to provide 
integrated programs to implement policy and serve the interests 
of the Afghan people. We believe that this policy and this 
group has a good chance of succeeding and will contribute to 
the enhanced cohesion and coordination that thus far has been 
absent in the delivery of international relief.
    To sum up, Mr. Chairman, there has been dramatic progress 
throughout Afghanistan over the past 5 years. Through the 
efforts of the international community, Afghans should no 
longer be considered a failed state, but rather a fragile 
state. Even with this progress, though, efforts must be 
significantly increased if we are to ensure long-term success. 
As NATO takes responsibility for the security of all of 
Afghanistan, the leadership and resources role of the United 
States remains as important as it has ever been. With this 
continued support, I believe that NATO will ultimately set the 
conditions for Afghanistan to continue in its path toward 
development.
    Mr. Chairman, this concludes my remarks and I would be 
happy to answer any questions you might have.
    [Editors note.--The slides mentioned were not reproducible 
in this hearing but will be maintained in the committee's 
permanent record.]
    [The prepared statement of General Jones follows:]

Prepared Statement of General James L. Jones, Jr., USMC, Supreme Allied 
Commander Europe (SACEUR), Supreme Headquarters, Allied Powers Europe, 
                             Mons, Belgium

    Chairman Lugar, Senator Biden, distinguished members of the 
committee, thank you for the opportunity to appear before the committee 
today in order to provide you with an update on NATO's role and mission 
in Afghanistan.
    Before I begin my remarks on NATO's current operations in 
Afghanistan, I would like to highlight several major operations in 
which the alliance is currently involved and in doing so, provide you 
with the strategic context and background against which all of our 
efforts in Afghanistan are balanced. Today the alliance is engaged with 
some 38,000 troops deployed in missions and operations on three 
continents.
                            nato operations
    NATO continues its mission in the Balkans, notably in Kosovo, where 
we expect the United Nations Status Talks to produce recommendations in 
the future. We retain strong and capable forces (16,000) in the 
province in order to ensure we maintain a safe and secure environment 
during these potentially volatile political negotiations.
    Operation Active Endeavour, NATO's only Article 5 mission, is our 
primary antiterrorism operation in the Mediterranean. This operation 
aims to disrupt, deter, and defend against terrorism on the high seas, 
and over the past 4 years, it has proven a credible deterrent. This 
week, NATO achieved the historic integration, under NATO command and 
control, of the Russian Federation warship Pitliviy into NATO's 
maritime operations.
    In Iraq, NATO continues its training and equipping mission in 
support of Iraqi Security Forces. Our main effort remains the training 
of army officers inside Iraq. From the basic officer commissioning 
course to War College classes, NATO is engaged in training the future 
leaders of the Iraqi armed forces. The second aspect of our mission in 
Iraq is to assist in the equipping of the armed forces and to date, 
NATO nations have provided arms and equipment ranging from small arms 
ammunition to T-72 tanks. Finally, the alliance continues to provide 
training opportunities for Iraqi security force personnel outside of 
Iraq at national training facilities or NATO institutions such as the 
NATO Defense College in Rome and the NATO school at Oberammergau, 
Germany.
    In Africa, we retain a small training mission in support of the 
African Union in Ethiopia in order to build capacity among African 
forces headquartered in Addis Ababa and Darfur. NATO will continue to 
provide strategic lift into and out of Darfur for the nations 
committing forces to the African Union mission in Sudan.
    Finally, we continue the development of the NATO response force, 
which is unquestionably the most transformational, operational 
capability we have in the alliance. In preparation for the NATO 
response force's full operational capability, we recently completed a 
major deployment exercise to the Cape Verde Islands off the west coast 
of Africa as a proof of concept that NATO can rapidly deploy and 
execute operations in austere conditions at strategic distances. While 
we have made great strides in transforming the forces assigned to the 
NATO response force, long-term force generation for the NRF has not 
been fully resourced by the alliance. As such, we may not be able to 
declare full operational capability by 01 October as envisaged at the 
Prague Summit in 2002.
    Turning to Afghanistan, NATO's International Stabilization 
Assistance Force (ISAF) is the main effort of the alliance, and is 
composed of 19,500 soldiers from 37 nations (26 NATO and 11 non-NATO 
nations). Today, approximately 1,300
personnel assigned to ISAF are from the United States. This number will 
grow significantly when the final stage of ISAF expansion--stage 4--is 
complete. Multinationality is a key characteristic and strength in ISAF 
and partner nations are a significant presence and bring considerable 
experience.
             international security assistance force (isaf)
    As previously discussed with this committee, NATO's involvement in 
Afghanistan is not new. Beginning in 2003, with NATO's assumption of 
responsibility for Kabul, NATO has assisted the Afghan Government in 
the maintenance of security; facilitated the development of government 
structures and extension of its control; and assisted the Government of 
Afghanistan with reconstruction and humanitarian efforts.
    LTG David Richards (U.K. Army) is currently the commander, ISAF 
(COMISAF) and the senior NATO military commander on the ground. COMISAF 
is responsible for commanding all of the NATO forces in Afghanistan and 
works very closely with the Afghan Minister of Defense, the Afghan 
national army and, to a lesser extent, the Afghan national police. The 
position of COMISAF is scheduled to rotate in February 2007 to the 
United States lead.
    The NATO senior civilian representative in Afghanistan is the NATO 
secretary general's personal representative. The SCR's role in working 
with the Government of Afghanistan and the international community to 
ensure adequate attention is being given to nonsecurity issues. Both 
COMISAF and the SCR play a very close role in coordinating with the 
international community, including the United Nations, European Union, 
and non-governmental organizations in Afghanistan.
       international security assistance force (isaf) operations
    As NATO has expanded throughout Afghanistan, we have established 
regional commands, forward support bases, and the provincial 
reconstruction teams or PRTs throughout the country. These teams enable 
NATO to increase ISAF presence and operate primarily on a permissive 
basis, concentrating on stabilization through the provision of a secure 
environment, allowing the international community (IC) to reconstruct 
areas that might otherwise be inaccessible to them. The Government of 
Afghanistan has welcomed ISAF expansion and the tangible stability and 
reconstruction the PRTs bring to provinces.
    Since I last appeared before the committee, NATO has assumed 
responsibility for the southern region. Aware of the volatile security 
conditions in the southern region, NATO nations moved into this region 
with robust rules of engagement and more forces than had previously 
been present under the coalition.
    With the transition of authority for Region South at the end of 
July, NATO's efforts have shifted from the primarily reconstruction and 
development-oriented activities as found in northern and western 
Afghanistan to operations focused on counterinsurgency operations. Over 
the last 60 days, the opposing militant forces appear to be testing 
NATO to see if it has the will and the capability to stand and fight, 
and the evidence so far is that the answer is overwhelmingly ``yes.'' 
This past weekend, NATO concluded Operation MEDUSA, an operation 
designed to defeat insurgents located in Kandahar Province in order to 
establish the conditions for reconstruction and development activities 
to move forward in the Province. The countries involved in operations 
in southern Afghanistan (Canada, the Netherlands, the United Kingdom, 
Romania, the United States, Denmark, Estonia, and Portugal) have 
performed extraordinarily well.
    While we have been engaged in offensive operations almost 
continuously since assuming responsibility for Region South, I am 
convinced that the solution in Afghanistan is not a military one. We 
are working with the international community and the Karzai Government 
to make sure that our military efforts are matched very quickly with 
reconstruction and development activities in order to meet the 
expectations of the Afghan people. It has been clear from the outset 
that progress in education, agriculture, economic development, public 
services, and health care has to go hand-in-hand with providing a 
stable, secure environment. The Afghan authorities and ISAF are now 
focusing on the key task of ensuring that reconstruction and 
development can take place, in accordance with the priorities 
identified by the local authorities themselves.
              afghan national army/afghan national police
    One of the most important aspects of long-term security is the 
development of Afghan national security forces--both the Afghan 
national army and the Afghan national police.
    The Afghan national army (ANA) is about 30,000 strong and is 
playing a vital role in the security of Afghanistan. The U.S. 
commitment to produce 50,000-70,000 ANA is essential. NATO nations 
recognize the importance of this mission and have begun fielding NATO 
operational mentor and liaison teams or ``OMLTs'' that are similar to 
and will replace U.S. embedded training teams (ETTs).
    Currently, 15 NATO OMLTs have been offered by troop contributing 
nations (TCNs) with 7 completely fielded. Additionally, NATO is working 
on a proposal to provide additional equipment and training to the ANA. 
This effort will be similar to our efforts in Iraq and will be in 
addition to the United States' ongoing efforts to train and equip the 
ANA. The more rapidly we can build a capable and sufficiently robust 
ANA, the faster we will set the conditions for success.
    ISAF's contribution to Afghan national police training remains 
within means and capabilities as cited in our operations plan. Progress 
continues to be made on ANP pay. A trial ANP salary payment program 
seems to have been a success; with all police officers being paid 100 
percent of their salary at an Afghan-operated banking facility. The 
intention is to expand the program where the banking capacity exists. 
This has, in our opinion, had a positive impact on the ANP.
                            judicial reform
    Closely linked to ANP development is judicial reform. While 
judicial reform is not an ISAF task, ISAF cannot be successful unless 
the rule of law is seen as working effectively and swiftly. Although 
some progress has been made in judicial reform, the courts and 
prosecution remain distrusted, corrupt, and resource-starved. One of 
the problems with judicial reform is the low pay of prosecutors, which 
make them susceptible to corruption. Currently, a top and considerably 
less than the Taliban are paying local youths to support their military 
operations. With such disincentives, the temptations for corrupt 
practice will continue.
                           counter narcotics
    Finally, we must tackle the problem of narcotics. Afghanistan need 
not be a narco-state. The parts of Afghanistan currently producing the 
largest poppy crops are those that traditionally did not grow poppies. 
We need to find the means to ensure farmers can economically grow and 
sell legal produce.
    Preliminary results of the 5-year counter-narcotics program for the 
2005-2006 growing season indicate a dramatic increase in opium 
production and hectares under cultivation. The headline figures show a 
rapidly deteriorating situation, particularly in the southern 
provinces. The figures produced by the U.N. support warnings from 12 
months ago that the drug trade in the south, and particularly in 
Helmand, was increasingly aligning itself to the insurgency.
    As well as being able to use the opium issue as a means of gaining 
support from farming communities, there was a clear financial 
imperative for the insurgency. Potential revenues will have given their 
cause a considerable boost, considering that indications show that 
money is the primary motivation for their fighters and allows the 
insurgents to purchase arms and ammunition.
    The Ministry of Counter Narcotics (MoCN) has established five 
counter narcotics (CN) working groups in an attempt to 
``operationalize'' the Afghan National Drugs Control Strategy (NDCS). 
Headquarters ISAF staff is represented on four of these working groups. 
While the National Drug Control Strategy is aligned with the
Afghan National Development Strategy (ANDS), is clear that the 
Government of Afghanistan must do better in combating drugs. The 
Alternative Livelihoods (AL) program should go hand-in-hand with the 
efforts in eradication and the Poppy Elimination Program (PEP). 
Although many programs are ongoing, farmers complain of inadequate 
compensation which undermines the program's credibility. More ``cash 
for work'' projects must be started, new agriculture techniques should 
be implemented, and infrastructure for irrigation must be available, 
together with material resources. For the counter-narcotics initiative 
to succeed the Alternative Livelihoods program must be connected to the 
wider development efforts in support of the ANDS and given greater 
priority. Simply replacing one crop for another may not be sufficient 
to give a previously narcotics-based local economy the support 
structure needed to fully develop or even survive without extensive 
assistance.
                       international cooperation
    There is a need for ever-closer cooperation and coordination 
between ISAF, the Government of Afghanistan, the other nations involved 
security sector reform, as well as governmental and nongovernmental 
organizations operating in the country.
    President Karzai has recognized this and created a small policy 
action group (PAG) to act as a key policy and decision making body. 
This body is Afghan-led and chaired by the President. The PAG strives 
to coordinate the actions of the government/international community to 
achieve mutual support and much greater effect than could be achieved 
independently. The PAG is designed to reach down to the provincial, 
district, and community level in order to provide integrated programs 
to implement policy and serve the interests of the Afghan people. We 
believe that with the full and active support of the international 
community, this initiative can have a positive and long-lasting effect.
                               conclusion
    In conclusion there has been dramatic progress throughout 
Afghanistan over the past 5 years. Through the efforts of the 
international community, Afghanistan should no longer be considered a 
failed state but rather a fragile state. Even with this progress, 
efforts must be significantly increased if we are to ensure long-term 
success. As NATO takes responsibility for the security of all of 
Afghanistan, the leadership role and the resourcing role of the United 
States remains as important as it has ever been. With this continued 
support, I believe that NATO will ultimately set the conditions for 
Afghanistan to continue its development.
    Mr. Chairman, this concludes my comments.

    The Chairman. Thank you very much, General Jones.
    We will now have questioning by members. We will have a 10-
minute question period for each one of us. Let me begin the 
questioning by noting, as you pointed out, the overall poverty 
of the people of Afghanistan, which I suspect is recognized by 
most Americans as we think about the country, but perhaps not 
in the same way that you have so graphically illustrated. For 
instance, the salaries of the prosecutors and the judges, the 
problems of substitution for narcotics that really have not 
worked very well.
    Let me just ask, as all of this is sketched out and members 
read more and more about Afghanistan, the problems become so 
daunting that there is a feeling, not of confusion or 
frustration, but almost of general despair as to how all of 
these objectives are ever to be met in an area of the world 
that has not seen much peace, with conflict forces, not just 
Afghans but other powers.
    What I would like for you to try to describe just 
organizationally is, granted that progress has been made--you 
noted a 30,000-man army, progress being made on police--at the 
same time most critics of the whole situation would say on the 
development front the ability of people to find jobs, find 
legitimate income, is really suffering. This is due in part, 
some critics would say, to our own contribution to this. 
Appropriations have been much less than was required from what 
we saw. But they likewise have not led to a great deal of other 
generous donors, for what would appear to be a very, very 
expensive project.
    If there were a business plan for Afghanistan, for example, 
the question is who would fund it? And, I suppose, second--who 
would administer it at this point, given the problems of the 
central government and its outreach? It is obviously the cross-
section of security, in which the aid of the warlords is sought 
and some would even say the aid of the Taliban is sought, as 
opposed to there being anarchy or wholesale criminality in 
various areas.
    In other words, who is in charge of some comprehensive way 
in which more income comes, more development? If there is to be 
substitution for the drugs, who really provides the planning 
for this and the execution of the plans? Finally, what level of 
generosity or development funds should we expect that we are 
going to need, over what period of time, if this is not to be a 
situation in which people finally say, well, we gave it a try 
and in essence people are better off, but on the other hand we 
have many other objectives, we have got to move on, and there 
are lots of other people in need?
    We heard, for instance, in the Lebanese situation in this 
committee last week, an estimate by a very well-informed 
witness that $5 billion might be required simply to repair the 
country after the damages of the recent war, with $230 million 
coming from our country, but some of that reprogrammed, even a 
hint that some of the reprogramming might be coming out of 
Afghanistan.
    We are trying to organize our thoughts as to how this is 
going to get done at the development level as well as the 
security level and how much money it is going to cost and what 
kind of anticipation should we have for support.
    General Jones. Mr. Chairman, thank you for that question. I 
am a little bit at a disadvantage because my NATO role is to 
oversee the efforts to stabilize and provide the environment 
under which reconstruction can begin. NATO does not have, 
beyond the administering of provincial reconstruction teams, of 
which we have 14, the coalition has 9, 23 total in the country, 
the reconstruction and aid package from nations is actually 
funneled through the United Nations Afghanistan mission.
    If you would look at that slide and imagine the blue top to 
those pillars as being a U.N. organization, U.N.-led, that is 
the overarching coordination body that is designed to 
coordinate and direct the international relief aid.
    The Chairman. Is that also judicial reform, that the United 
Nations does that in addition to the economic reconstruction?
    General Jones. Yes, sir. You will see in the pillars there 
under ``Counternarcotics,'' United Kingdom lead; ``Judicial 
Reform,'' Italy; ``Disarmament, Demobilization, and 
Reintegration,'' Japan; ``Training the Afghan National Army,'' 
United States; and ``Training the Police Force'' is Germany.
    These countries have agreed to be the lead nations. That 
does not mean that they do it all by themselves, and I have a 
feeling that sometimes, particularly in the area of 
counternarcotics reform, such a comprehensive and complex 
problem, that there has been a tendency to kind of say, well, 
that is the United Kingdom's problem. It is not and it cannot 
be solved by any one nation.
    In my opening remarks I tried to illustrate where those 
five pillars are. The roof on the pillars seems to indicate 
stability in the pillars, but actually the only pillar that is 
really doing well in my view is training the Afghan national 
army. No. 2, I think, is the Japan-led DDR pillar, which is 
doing reasonably well. I would say that the other three are in 
need of strong support and should be producing more than they 
are producing or more than they have produced to date.
    The Chairman. Who at the U.N., then, is coordinating these 
five situations? Who is in charge at the top of this?
    General Jones. Well, there is a representative of the 
Secretary General of the United Nations who runs the UNAMA, 
United Nations Mission in Afghanistan, and he is the titular 
head of the U.N. and provides the overall framework for nations 
and nongovernmental organizations and relations with the Karzai 
Government to coordinate the international aid and relief 
effort in the country.
    The Chairman. Well, how do we gain some responsibility from 
him? In other words, who is he accountable to? We probably 
cannot call him before a committee like this, but on the other 
hand we probably should. As you point out modestly, the United 
States is leading the way in training an army, but there are 
five pillars. As you say, you get the impression that this roof 
is held up, but if three or four pillars are almost nonexistent 
or faltering the whole thing collapses.
    So this is, I think, not well understood by any of us. That 
is why I am trying to draw this organizationally. Who is 
responsible and how do we bring some accountability to this 
whole process? Absent that, the contributions by other nations 
are likely to continue to falter and their general interest in 
any of this likewise is going to be negligible in some cases; 
the British particularly with the narcotics. One would say, my 
goodness, were you born yesterday; half of the GNP is in this; 
how do you expect us to resolve this?
    And as you say, it is not just the British. Others ought to 
be helping them on counternarcotics. They are the lead group. 
But who pushes anybody to help the British? Who in the U.N. is 
in charge, so that we finally get some cohesion in all of this?
    General Jones. Well, Mr. Chairman, you put your finger on 
it. I think the structures are generally there and we simply 
need to find the ways to make sure that, No. 1, there is 
sufficiency in the aid. The estimate, the Afghan estimate over 
what is required for 5 years, I am told is about $27 billion 
over a 5-year period. To date $13 billion has been accounted 
for and committed and $11 billion has been disbursed. About 30 
percent of that is U.S. donations.
    So in terms of the requirement of $27 billion, the money 
raised is about $13 billion, so we are about halfway there. So 
clearly you cannot, at this rate you cannot do everything that 
you want. It does not mean that you cannot do some really good 
things.
    My observation after almost 4 years of watching this 
problem is that we need more focus and we need to find ways, 
for example, to make sure that the government that we are 
trying to help is also doing what it can, is also doing what it 
can to, for instance, attack corruption, to begin to put a plan 
in place, that has to be Afghan-led, but to fight the narcotics 
problem.
    The international community has to support this and has to 
get behind it. But when we figure out how to do that, when we 
get more cohesion and we get the international aid focus to do 
the four or five really important things that need to be done, 
then I think the road to success in Afghanistan will be clear.
    I deeply believe that this is not a military problem and 
there is not a military solution here. The military plays an 
important role, just as we did in the south just recently to 
establish the conditions. But there has to be an immediate 
effect of the fight to show the people of Afghanistan that they 
are--we can deliver on the promises, the government is going to 
be able to have outreach throughout the country.
    Strategic communications from the government to the people 
in my view should be enhanced and we should to better. I 
believe that we should, to the extent that we can, provide 
guidance and advice to the young ministries that support this 
government. In some cases, in terms of their department of 
defense, we are doing reasonably well. In some others we are 
not.
    But it is the cohesion of the effort that I think needs to 
be enhanced. I am hopeful that this policy action group and the 
development of Afghan development zones, which is another 
effort to focus the aid to where it does the most good at the 
right time, at the right place, will be successful.
    But I guess to the extent that there is good news, this is 
doable in my view. It is achievable. It is not about more 
troops, it is not about raising armies. I think the troop 
levels are satisfactory and if we can fix some of these basic 
problems and focus the international aid effort and have some 
metrics by which we measure our progress each year, instead of 
having to come in and report that we are losing grounds in the 
war on narcotics every year, which is the Achilles heel in my 
view of the reconstruction, overall reconstruction effort in 
this country, then I think we can make some progress.
    So I am optimistic these are solvable and I am sure that 
people are working on it right now.
    The Chairman. Thank you, General.
    Let me just mention that the General will need to leave us 
at 11 o'clock. There is ample time for each one of us at this 
point, although sometimes folks join us during the course of 
that time. But we will do the best we can.
    Senator Dodd.

     STATEMENT OF HON. CHRISTOPHER DODD, U.S. SENATOR FROM 
                          CONNECTICUT

    Senator Dodd. Thank you very much, Mr. Chairman. I am going 
to ask consent to have an opening set of comments be made a 
part of the record if that is appropriate.
    The Chairman. It will be made a part of the record.
    Senator Dodd. General, it is good to see you. I am a fan of 
General Jones. We have known him and worked with him on a 
number of issues over the years and we are fortunate indeed to 
have you doing the job you are doing. So I thank you for your 
efforts.
    I want to thank the chairman again. These are very valuable 
and important hearings and I thank the chairman immensely for 
giving us the chance to raise some of these issues.
    Let me if I can, General, sort of tie this in. I was 
looking at the numbers in Europe, the support for NATO. There 
has been some decline of popular, public support for the 
institution. I know the requests are outstanding for some 
additional troops that you have made and I want to raise that 
with you as well. We are watching, obviously, a significant, at 
least maybe, if you would use the word, significant upsurge in 
insurgence, Taliban insurgent activity this year, and a lot of 
at least similarities between the kinds of activities we are 
watching now in Afghanistan that we have witnessed in Iraq.
    The question I want to raise with you, because I think it 
is impossible to stovepipe these issues in the sense of sort of 
separating out what is the reaction, why are we not getting 
more support, and to what extent do you attribute the 
difficulties in Iraq we are experiencing with what you are 
encountering in Afghanistan? Share with us, because you are 
dealing with your colleagues all the time in the European 
community, who I presume are sharing some of the attitudes and 
reflections? And I suspect that what you are getting in 
reaction to what our requests are with regard to Afghanistan is 
reflected by what is occurring in Iraq, the lack of the kind of 
support that we have seen there.
    Could you share with us, how is that going on and to what 
extent is there any linkage between what is happening in the 
activities in Afghanistan and Iraq?
    General Jones. I think there is genuine support, political 
support across the 37 countries that find themselves in 
Afghanistan. That support for Afghanistan has existed almost 
from the outset. So in that sense it is a little bit different 
than the difficulty we went through internationally in the 
North Atlantic Treaty Organization on the debate with regard to 
Iraq.
    I think one of the things that makes it difficult for 
countries is the fact that during the last 4 or 5 years, as the 
political appetite to do more has gone up, to do more in 
Afghanistan, to start a mission in Iraq, to maintain the Kosovo 
troop levels at 16,000, to embark on Operation Active Endeavor, 
to train and equip and NATO response force--all that has been 
very good and symbolic of a NATO that is developing and 
changing and growing.
    At the same time, it has been accompanied by a 
corresponding decrease in the budgets of many of the countries 
in NATO, budgets for national security. The average budget in 
NATO percentage of GDP for national security is now 1.7 percent 
of GDP across the 26 nations. The agreed-upon target, the 
minimum that was agreed upon at the Prague Summit in 2002 was 2 
percent of GDP. So we are actually going the wrong way. We have 
more missions and less resources.
    The Afghanistan situation or the Afghanistan development is 
interesting because it does have some strong points in terms of 
unity. The question of the generation of troops actually has 
taken a turn for the worse--I am sorry, for the better--since 
the last couple of weeks with Poland's announcement of sending 
the battalion and special forces. The Romanians have let us use 
an operational reserve battalion. The Canadians are going to 
augment their forces. We are looking to lift some of the 
national restrictions on the troops that are in Afghanistan, 
which restricts the commander's ability to use the troops the 
way he would like to. We have a few other nations that I 
cannot, I am not at liberty to mention yet because they have 
not made the national decision, but we have others that are 
coming on line.
    So in the last 10 days or so we have been moving in a very 
positive direction. But I think that the countries that are 
providing their forces and their money want obviously to see 
that it is going for the right thing, and they want to see 
reconstruction, they want to see development, they want to see 
the promises that were made to the people come to pass. I think 
there will be support for this mission in Afghanistan for quite 
a while within the alliance. As a matter of fact, we still have 
one more section to bring in under NATO, the eastern section of 
the country, which will happen in the not too distant future.
    But if we can focus our energies on the things that 
absolutely need to be done, then I think the investment in 
Afghanistan will pay off quicker and we will be there for a 
shorter period of time.
    Senator Dodd. Let me try this again. I am curious as to 
whether or not there is any spillage in terms of political 
reaction, whether or not there is any correlation you see at 
all between the kind of activities that have increased with the 
Taliban in Afghanistan and the kind of activities we have 
watched for a longer period of time in Iraq. Is there some 
relationship there?
    While I have asked that question, let me also--I know there 
are some differences about the rules of engagement and some of 
our allies are requesting, I gather, certain rules of 
engagement regarding their troops in Afghanistan. To what 
extent is that posing a difficulty?
    But I want to come back to this Iraq-Afghanistan issue, 
because my sense is these numbers in Europe of popular support 
for the role of NATO declining has some correlation between the 
attitudes about Iraq, and I am curious whether or not you agree 
with that.
    General Jones. It would be hard for me to make the 
correlation. I think if there is a correlation it is simply 
because of the amount of money that is going to support both 
missions, plus national missions. So I think the publics are a 
little bit unclear as to what NATO is and what it is doing. We 
have not done a good job of explaining ourselves.
    I do not know that there is a political spillover between 
the two. My belief is that Afghanistan is well understood and 
well supported.
    You had another--oh, the rules of engagement. The rules of 
engagement for Afghanistan are very clear, very adequate, 
agreed to by all 26 countries. So that is not an issue. What is 
an issue for me sometimes and for commanders is nations provide 
their forces, but they also have a list of restrictions on how 
we can use those forces. We call them caveats. I think caveats 
are very limiting. I think they actually make our problems more 
difficult and they actually contribute to--countries whose 
troops have excessive number of caveats project weakness and 
make them more vulnerable. So I am fighting to remove as many 
caveats as possible.
    Senator Dodd. I should have mentioned, by the way, and I 
apologize for not doing so, how deeply all of us, how 
appreciative we are of the role that U.S. forces are playing 
there and the sacrifices they are enduring. None of us are 
unmindful of the fact that about 340 of our fellow citizens 
have lost their lives in Afghanistan and many more injured in 
the process. I think any discussion should always begin by 
thanking these troops for the tremendous sacrifice that they 
paid.
    Tell me about the Taliban. Is there any correlation between 
what is going on in Afghanistan and Iraq in terms of the 
military activities? They look like there are some very--are 
these copycats or is there some connection between what is 
happening in Iraq and Afghanistan? Is there some connection 
that we ought to be aware of?
    General Jones. I think there might be some copycat 
connection, but I think the reason, part of the reason for the 
uptick in violence, particularly in the south, is because until 
recently we have never had any permanent forces in that part of 
the country. When the coalition led--the U.S.-led coalition was 
operating in the country, these operations in the south were 
mostly short-term duration special forces, very kinetic, and we 
did not have the mass to simply occupy a part of that 
territory.
    This time, with 6,000 NATO troops there who come into these 
provinces and are going to stay there and they are going to do 
the reconstruction that is worthwhile, it is the first time we 
have had that permanent presence. What has happened I think, 
particularly in the south, is the home of the Taliban 
traditionally, the home, the epicenter of the narcotics 
production, there has been criminality, there has been corrupt 
governance, lack of police. This is the first time that we have 
had a permanent presence.
    So we have gone through the tough period here, at least in 
this part of the province. We have been successful fighting the 
Taliban, causing him to retreat. Actually the Taliban adopted 
tactics we had not seen. They actually chose to stand and fight 
in a conventional way. They paid a huge price for that. I do 
not think we will see them trying that again.
    But it was a major turning point, at least--I will not say 
in terms of Afghanistan, but in terms of that particular 
region. A major statement was answered, and we are going to get 
on with it.
    Senator Dodd. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Dodd.
    Senator Hagel.

   STATEMENT OF HON. CHUCK HAGEL, U.S. SENATOR FROM NEBRASKA

    Senator Hagel. Thank you, Mr. Chairman.
    Welcome, General Jones. I suspect this may be your last 
formal appearance as our NATO commander before this committee 
and I, I am sure as well as all my colleagues, want to express 
our deep appreciation for your service, your leadership. You 
are one of the preeminent military leaders of our time, but 
your reach is far beyond the military dynamic of our 
geopolitical interest in the world, and for your wide-lens 
understanding of the issues we appreciate it. You have made us 
a far stronger country and you have made NATO a much better 
institution because of your leadership. Please convey our 
thanks to your colleagues, some seated behind you, but also as 
well in Brussels and across the scope of NATO's reach. Thank 
you, General Jones.
    I would like to go to the eastern border of Afghanistan and 
if you could explain what role Pakistan is playing in 
supporting ISAF's efforts, in particular along the eastern 
border, and then I want to go a little deeper into that as 
well.
    General Jones. Senator Hagel, I just returned from a visit 
to Islamabad, my second one as the NATO commander, and had a 
good opportunity to talk with the senior military of the 
Pakistani armed forces. They explained to me in detail their 
assessment of the recently completed arrangements with the 
tribal regions. If the words that they used actually come to 
pass, then things could be much better along the borders. The 
tribal authorities have decided that they would expel 
foreigners, for example, limit cross-border crossings, respect 
the territorial integrity of Afghanistan and Pakistan and the 
border itself.
    If all of those words are backed up and agreed to, then we 
should see a positive development. I intend to go back in about 
30 days to Islamabad. We are watching very closely to see what 
happens along the border over these next--this next month, and 
then we will have another discussion when I return on what we 
see on the Afghan side.
    I must say that I was impressed by the willingness of the 
Pakistani military authorities to want to have a more developed 
and heightened relationship with NATO, particularly on border 
issues. Pakistan is a member of the Tripartite Commission along 
with Afghanistan and NATO and COC-Alpha to discuss military 
matters affecting the border. So we are building the network 
between the Afghanistan, Pakistan, and now NATO to better know 
each other and to better understand exactly what it is that 
needs to be done on both sides of the border.
    So my initial meeting was encouraging. The words I heard 
were good and now we need to see if we can back up the words 
with demonstrated performance.
    Senator Hagel. Thank you.
    Do you agree with the assessment of some that the Taliban 
headquarters is somewhere in the region of Quetta?
    General Jones. That is generally accepted, yes, sir.
    Senator Hagel. Give us a little bit of your response to the 
assessment, of the recent agreement that Pakistan has signed 
with the tribes in that part of Pakistan, and specifically the 
Waziristan region?
    General Jones. Well, as I said, my assessment is that if 
all the elements of the agreement are in fact lived up to by 
the signatories, then the situation on the border should 
improve. The question is now, is to observe. What we are doing 
now is observing, watching, recording, so that when we go back 
in 30 days to Islamabad we can have a more focused discussion 
as to what we see in fact on the ground.
    This is measurable. You can tell what is going on on the 
borders. You can tell by what is going on in Afghanistan 
whether there is any change. We will be able to observe that. 
We will be able to have some dialog with the Pakistani 
authorities, and then we can take it from there.
    Senator Hagel. Would you consider this agreement by the 
Pakistani Government as significant in regard to the 
commitments that were accompanied in that agreement, especially 
commitments to NATO and to our efforts to deal with the 
Taliban?
    General Jones. Well, I think the words are significant in 
the agreement. For example, the tribes have agreed that there 
will be no foreign troops in the Federally Administered Tribal 
Areas, there will be no cross-border operations, they will not 
challenge the Pakistani Government's authority, they recognize 
the territories--the territorial boundary of Pakistan, and 
there will be no Talibanization of the Federally Administrated 
Tribal Areas. They also have agreed that, as I mentioned, no 
foreign troops--by that I mean foreigners--will be expelled.
    If they are able to live up to the terms of those 
agreements, the border should be a much quieter region. We are 
in the process now of observing very closely what is going on 
and what the effect is on the Afghani side of the border, and 
we will know that in probably the next month or so.
    Senator Hagel. Included in your graphic here that you have 
presented, and you engaged each of the five pillars in your 
testimony--the fifth, train police forces, led by Germany, you 
did not spend a lot of time on that issue. You were, if I 
interpret your comments correctly, rather positive in your 
analysis and assessment of the training of the Afghan army. 
There are, as you know, significant reports about corruption, 
the inability or unwillingness of the Afghan police to do their 
jobs, not unlike the same problems we are facing in Iraq in 
trying to build the police forces there.
    I would appreciate your assessment of that effort, if we 
are going to be required to put more resources into that 
effort. How would you assess it? Obviously that is a 
significant problem that we are going to continue to face, not 
unlike again what I said is happening in Iraq.
    General Jones. Yes, sir. I think the three pillars that 
need much more energy than they already have is the police 
reform and training, judicial reform, and counternarcotics. The 
three are somewhat linked. The counternarcotics and the 
dependency of Afghanistan on the opium trade fuels all of the 
problems elsewhere in the society, from corruption of the 
judicial process, corruption of the police force, corruption at 
the highest levels in the society, in addition to fueling the 
insurgency with cash.
    So that is clearly--those three pillars are clearly 
important and worthy of the international community's attention 
as a matter of the highest priority. Failure to address those 
three pillars will mean that we will be in Afghanistan for a 
much longer period of time than is necessary.
    The United States has contributed a lot of money to 
training the police pillar to assist the German-led efforts 
there. Much more needs to be done. There is not an adequate 
number of policemen, and there is even quite a substantial 
portion of the police force that is underpaid and cannot 
compete with the $250 or so that the Taliban is willing to pay 
to offset their numbers and to compensate them for the money 
they do not have to support their families.
    Senator Hagel. Do you believe, General, that the Afghan 
Government is going to have to be far more aggressive in 
prosecuting drug dealers, others who it is my understanding 
that the government is looking the other way and allowing a lot 
of this to happen? It is obviously risky. But unless the Afghan 
Government is willing to do more--or is that interpretation 
correct?
    General Jones. I think it is a correct interpretation. I 
think the Afghan--the new government has to show that, on 
corruption, that it is uncompromising and that it is willing to 
go after the narcotics cartels and to prosecute and convict 
those who are guilty and to be severe with the punishment they 
award. That is something that has got to be hand-in-hand 
accompany--that has got to hand-in-hand accompany any infusion 
of effort that the international community comes up with to 
institute those reforms.
    The Karzai Government does have a prominent role to play 
and that message, when they start doing it on a regular basis, 
will go a long way toward signaling to the people that this 
is--we are serious about this. But until we start it, it is not 
going to be recognized as serious. Words are hollow in this 
particular, in these particular efforts right now. We need 
action.
    Senator Hagel. General, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Hagel.
    I am pleased that we have been joined by more Senators as 
you have been continuing your testimony. Our predicament for 
Senators who have joined us is that the General has travel 
assignments and he will need to leave by 11 o'clock. So I hope 
I will not infringe on anyone's right in suggesting maybe an 8-
minute limit for the four Senators that we have remaining. If 
you need more time, why, please proceed. But for the moment, 
why, do the best you can.
    Senator Kerry.

 STATEMENT OF HON. JOHN KERRY, U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Thank you very much, Mr. Chairman.
    General, thanks. Welcome. Thanks for the job you are doing 
and thank you also for the time to visit the other day on the 
telephone. I appreciate it very, very much. I see the five 
pillars here and it is part of the public testimony.
    I have always felt that Afghanistan is the real center of 
the war on terror, not Iraq. And it is troubling to me that we 
have seven times the numbers of troops in Iraq that we do in 
Afghanistan and that suicide, suicide attempts I think are up 
triple. Roadside bombs are up double. You yourself have said, 
General, that narcotics is at the core of everything that can 
go wrong in Afghanistan if not properly tackled. But we are not 
making progress. We are losing ground.
    President Karzai has said that our approach to narcotics, 
counternarcotics, has failed, and the U.N.'s top 
counternarcotics official said yesterday that NATO forces have 
to somehow help the Afghan army to fight the opium trade.
    When I was in Afghanistan and met with President Karzai 
earlier in the year, I asked him about the narco situation and 
whether or not Afghanistan is now a narcoeconomy, and he said 
yes, he agreed. I think our experts agree. I think you would 
agree, it is a narcoeconomy.
    At what point does it become a narco state? And if our 
efforts have currently failed and that is the center of 
everything that can go wrong, what is going to change?
    General Jones. I do not know what the tipover point is, but 
when 50 percent, over 50 percent of your economy is tied to the 
narcotrafficking portion of it, you are well on your way. I do 
not know exactly when you become a narco state by definition. 
But it is clear that the influence of narcotics on all organs 
of Afghan society, emerging Afghan society, is there. It fuels 
the insurgency, it contributes to the corruption. It is 
omnipresent and it is something that, frankly, the family of 
nations ought to be worried about.
    I think one of the things I mentioned to you in our 
conversation was that 90 percent of the products are sold in 
European capitals.
    Senator Kerry. Well, with all of the troop level that we 
have there, what is the problem in engaging in a massive crop 
destruction effort? Are they afraid of the instability that 
will occur in the population, so they are in a sense locked?
    General Jones. It is a vicious circle, because I think what 
is needed is a comprehensive international plan that everybody 
signs up to that is multifaceted. If we simply focus on crop 
eradication, then you are affecting the livelihood of a 
significant portion of the country. So you have to have crop 
substitution. You have to have means of getting alternate crops 
to the markets, which means you have to build roads that may 
not exist.
    There is a whole series of dominoes that line up. But 
absent a clearly defined, well thought out, agreed upon, 
financed and resourced plan, you wind up doing a little bit of 
everything and nothing very well.
    Senator Kerry. That is what really concerns me, General. 
Here we are, President Karzai said, quote: ``The same enemies 
that blew up themselves''--that is his quote--``in the Twin 
Towers in America are still around.'' The plot against these 
airliners that was stopped in London was hatched in 
Afghanistan. Yet the center of changing this is to have 
economic success and reform success. And yet 40 percent of the 
Afghan population is unemployed right now, before you even do 
crop destruction.
    Ninety percent lack regular electricity. And yet this 
administration has appropriated nearly four times more in 
reconstruction funds for Iraq than Afghanistan, and in fact aid 
money was cut by 30 percent this year. So I would assume that 
greater construction efforts and greater focus in pulling 
together this comprehensive eradication or substitution plan 
would significantly bolster your efforts of our troops on the 
ground.
    General Jones. I completely agree. I think that the 
military aspect of what we are doing is important, but the 
long-term reconstruction is tied to how well we do in those 
pillars.
    Senator Kerry. So if the stakes are as high as everybody 
says, if the President says this is a battle for civilization 
and so forth, why are we not doing this?
    General Jones. I think that--I think we are doing, we are 
doing quite a bit. Just to put a positive spin on this, we have 
6 million Afghan children that are going to school today. Two 
million of them are girls. We have rebuilt over 3,000 
kilometers of roads. Now, 80 percent of the Afghan people have 
access to some form of health care. There are interesting 
measures of progress out there.
    Senator Kerry. Can I just interrupt for one second. I do 
not mean to cut you off at all, but the time is limited. I 
agree and I want to pay tribute to that. I think you and 
efforts on the ground have really been quite remarkable in a 
lot of respects. But what you are telling us, what President 
Karzai is telling us, what experts are telling us on the 
ground, is that all of that--and it is good--is at huge risk 
because of what is happening with the three pillars of the five 
that are affected by the narcotics, by the criminality, by the 
lack of judicial reform, the lack of competency within the 
police force.
    I think you said you have something like, is it, 40,000 
troops now?
    General Jones. There is 20,000 NATO troops and----
    Senator Kerry. No, of the Afghan army, trained.
    General Jones. Oh, I am sorry. About 30,000, yes, sir.
    Senator Kerry. So 30,000 now. That is not going to be able 
to do what is necessary if your economy is lost to this other 
effort, correct?
    General Jones. That is correct. I think you do need an 
Afghan army. I think you need the internal police force. That 
has got to be fixed. Judicial reform, you have got to be able 
to prosecute the people who are causing these difficulties in 
the narcotics. To me, I think that talking about this is 
important. I think it will have the effect in the international 
community to focus those people whose jobs it is to bring this 
about.
    I appear today as a NATO commander. My NATO 
responsibilities stop at stability and security and the 
management of the provincial reconstruction teams. There is an 
entire other sector that I talk about, but I do not have an 
assigned mission, in for instance, judicial reform. But I know 
that if we do not have judicial reform the security of the 
country is going to be jeopardized. So we have to talk about 
it, and I think we have to bring more international focus and 
energy to it.
    I must say that if we do that I am optimistic that this 
will be a success story. So I am optimistic about where 
Afghanistan can be in a few years.
    Senator Kerry. If we do this now?
    General Jones. If we do this, if we do this, and if we are 
successful at doing this. If we are not successful----
    Senator Kerry. What about the effort on Osama bin Laden? 
The Waziristan deal seems really troubling and a lot of people 
seem troubled by it, and most believe that, while some things 
are stated about what will happen, the expectations are 
considerably lower than that.
    Are you satisfied that you are able to do everything that 
you want to do, would like to do, believe is necessary to do to 
capture or kill Osama bin Laden?
    General Jones. This is the delicate part of my appearance 
here. As a NATO commander, my mission from the North Atlantic 
Treaty Organization is to assist the Government of Afghanistan 
in providing a safe and secure environment for reconstruction.
    Senator Kerry. I know CENTCOM is doing that.
    General Jones. And that is why I need to make that 
distinction, that the ISAF mission and the Operation Enduring 
Freedom mission, led by CENTCOM, that is the one that has the 
kinetic, the more kinetic counterterrorist mission. So I am not 
involved in the active border participations. NATO's focus is 
more on security, stability, and reconstruction, which is not 
to say that if we ever came across Mr. bin Laden that we would 
not apprehend him. We would. If we had indications that he 
might be in one of our areas, would we go try to get him? We 
probably would.
    Senator Kerry. And you do not want to venture to share with 
the committee just from your experience and judgment whether or 
not you think we are able to do all that is necessary or we 
would like to do?
    General Jones. Well, I can tell you that I know John 
Abizaid, General Abizaid, has spent a considerable amount of 
time working with the Pakistani authorities. We have large 
numbers of troops up in the border areas and we have done 
everything we can to--I think we are doing everything we can to 
locate him and locate other leaders and to discourage the 
border from being a sieve through which Taliban fighters come 
across to Afghanistan and contribute to the problems that we 
have there.
    So I think that over the next 30 to 60 days, while we give 
the Pakistani authorities a chance to test their new agreements 
in the border regions, I think the next 30 to 60 days will be 
interesting to see how effective we are going to be.
    Senator Kerry. Thank you, General.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Kerry.
    Senator Chafee.

   STATEMENT OF HON. LINCOLN CHAFEE, U.S. SENATOR FROM RHODE 
                             ISLAND

    Senator Chafee. Thank you, Mr. Chairman, very much.
    General Jones, thank you for your testimony. I associate 
myself with Senator Hagel's praise and gratitude for your 
service.
    Following up on the narcotics issue, you testified that the 
poppy growing is in areas where it has not grown before, 
particularly the southern regions. Why is that?
    General Jones. Simply it is the cash crop of choice. Our 
lack of ability right now to discourage the producers, to alter 
the behavior of the cartels, is indicative. Until we meet with 
more success and find alternate means of people earning a 
livelihood and find a way in which we can turn the economic 
situation around in some parts of the country, this is going to 
continue to be a problem.
    Senator Chafee. Why has it changed, that the south did not 
grow poppies, now they are? Is there any particular reason?
    General Jones. I think it is simply, simply a function of 
demand and the ability of these farmers to get money in advance 
of the planting season from the cartels, for example. And until 
we find the means to discourage that, punish it, prosecute it, 
limit it--and I think beyond the borders of Afghanistan, by the 
way, I think the European markets, which is the destination 
point, should be very concerned about the amount that is 
actually getting onto the streets of European capitals.
    But until we find the international solutions to bring this 
to, not a stop immediately, but to start reversing the trend, I 
think we are going to continue to have difficulties.
    Senator Chafee. I am just curious as to--I understand the 
big problem, but why the south? Is it more conducive to 
lawlessness or more Taliban in the south?
    General Jones. Well, I think the south, the southern part 
of the country, has been one of the parts of the country where 
we have not had a permanent presence of any large number of 
troops. Most of our activities there have been small, 
temporary, special forces-type activities. This is the first 
time that roughly 6,000 troops have moved into the area, with 
more to come. The Afghan army is down there now. We are 
cleaning out the corrupt governance. We are trying to get good 
police chiefs. We are going to start reconstruction with an 
impressive amount, starting virtually as we speak.
    So this is a part of the country that did not have a lot of 
presence. So as a result the narcotics had a safe haven, just 
as the Taliban was able to live there quietly, and now they 
cannot. So we are going through this period of tension. We are 
doing quite well in terms of asserting ourselves and our 
authority. So I hope that good things will start happening in 
the south.
    Senator Chafee. Is there an issue that this is, the 
Pashtuns are more conducive to the Taliban as opposed to the 
north might be, the Tajiks are less?
    General Jones. This is more of a traditional home of the 
Taliban than other parts of the country, and the infiltration 
routes come to this area.
    Senator Chafee. To go to another subject, is there any 
influence of Iran in anything that is happening in Afghanistan?
    General Jones. The Iranian influence in Afghanistan has 
mostly been along the border and is mostly economic. Most of 
the contacts that have been had along the border have to do 
with economic issues and actually an expression on the part of 
the Iranian border guards concerning the drug trade. Of course, 
one of the major drug routes goes through Iran, but it also 
goes up in other directions as well. So it is a problem for all 
of the countries surrounding Iran--I am sorry, surrounding 
Afghanistan. So there are some common problems here that could 
be worked on.
    But it is an economic relationship in the west, notably 
around Herat.
    Senator Chafee. Thank you, General.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Chafee.
    General Jones. Thank you, Senator.
    The Chairman. Senator Feingold.

   STATEMENT OF HON. RUSSELL D. FEINGOLD, U.S. SENATOR FROM 
                           WISCONSIN

    Senator Feingold. Thank you, Mr. Chairman, for calling this 
important hearing.
    General Jones, thank you for appearing in front of the 
committee and for your tremendous service. I know you are busy, 
so let me get to a couple of comments.
    First, I would like to second Senator Dodd's comments and 
take a moment to express how thankful I am and we are for the 
dedication and professionalism of the many Americans serving in 
Afghanistan. We have some of our best men and women serving in 
the U.S. military and the State, NATO, USAID, DEA, and other 
critical departments and agencies that, I agree, are trying to 
make and are in many cases making a true difference. I hope you 
will pass that message along to them.
    I have some questions, but first I would like to note the 
fact that I think we are getting two very different pictures 
from Afghanistan right now. We are seeing signs of progress, 
important political developments that include a new parliament 
and a new role for women in government, and an exponential 
increase in the number of children attending schools, which you 
mentioned.
    But we are also seeing some very troubling trends: The 
comeback of the Taliban and the destabilizing of southern 
Afghanistan. Opium production levels are up to the highest 
levels ever, despite significant efforts to reduce them, and 
violence is creeping back into Kabul, as we saw with the deadly 
car bomb very close to the United States embassy last week.
    These recent developments are disturbing. I believe we need 
to reevaluate our current strategy in Afghanistan and reassess 
the level of resources needed to invest there to achieve long-
term stability and security. As we all know, Afghanistan does 
have the potential for being a flagship success in the 
international fight against terrorist networks. It could also 
easily become, I am afraid, another long-term engagement in 
which the U.S. Government has no discernible strategy for 
success. We absolutely have to avoid that, as I know you agree.
    But General, I want to ask you a couple of questions that 
sort of relate to the five pillars here that you have 
established and try to connect up the reconstruction with the 
security situation. Senator Chafee was getting at this. I am 
particularly interested in learning from you what has and has 
not been effective in our reconstruction efforts in 
Afghanistan, particularly in the south.
    The United States and the international community have 
provided a significant amount of development and humanitarian, 
economic, and other forms of assistance there for the last few 
years. But what does the resurgence of the Taliban in the south 
suggest about the actual effectiveness of our reconstruction 
efforts? What is working and what is not?
    General Jones. The southern region, Senator, has been one 
of the regions where we have had the least amount of presence 
and therefore the least amount of reconstruction. It is a 
region that has been, not only been characterized by the 
absence of permanent security forces, but also poor governance, 
corruption, ineffective police forces, and generally a presence 
of Taliban or Taliban sympathizers, until a few months ago when 
NATO put in, is starting to put in a force that will total 
about 6,000-7,000 troops.
    This is the first time we have done that in this part of 
the country and, not surprisingly, we met with some resistance. 
Operation Medusa, which recently concluded successfully for 
NATO, was the first almost conventional ground combat mission 
that NATO has been involved in in many, many years. The Taliban 
chose to stand and fight and paid a high price for that 
tactical error.
    We are now following up really in the south with a very 
comprehensive package of reconstruction. Between May and 
September of this year in the south we will have spent--we have 
85 projects in many sectors of reform, from agriculture to 
capacity-building, education, energy, environment, governance, 
health, security, completion--working on the ring road, $62 
million scheduled for that, over $100 million going into 
another section of the road and a dam construction.
    But before we get on with things like that, we have to set 
the conditions under which they can be successful, and that is 
what this recent upsurge in fighting was about, to establish 
without question that we have the capability of doing this and 
that we are going to get on with making reconstruction reach 
this part of the country as well.
    Compared to the other parts of the country, this has been 
lagging. We are now there to try to jump start it.
    Senator Feingold. I appreciate your mentioning some of the 
reconstruction efforts. I just wanted to follow up by kind of 
looking at it the other way around, the way in which 
reconstruction, one would hope, would help stability, as 
opposed to the other way around. So I am wondering, are our 
reconstruction efforts being evaluated for their overall 
effectiveness in reducing stability?
    If you take one metric that you and I both have talked 
about here--the number of Taliban attacks in the south--it 
seems that things are not going so well in terms of that. Is it 
fair to connect these two things and what are we doing to 
reorient or redesign our efforts, or is it simply a question of 
having enough troops to create a scenario where that can work?
    General Jones. I think you cannot have, in this case, you 
cannot have security without reconstruction. You cannot have 
reconstruction without security. So in our theology with the 
NATO forces the two go hand-in-hand.
    In the south we had to establish the security and now we 
can have reconstruction and we can start. But this section of 
the country does lag behind the others in terms of economic 
investment for the reasons I tried to mention, the fact that it 
is an area where we have not visited and we have not been. We 
are there now. With the expansion of the Afghan army, if we can 
get the police force up and operating, if we can conduct 
judicial reform and attack the narcotics problem, I think you 
are going to see a very quick turnaround in how people will 
perceive who is going to win this battle.
    I think somewhere along the line there are maybe 60 or 70 
percent of the people of Afghanistan just simply trying to eke 
out an existence and want, they genuinely want peace and an 
opportunity for their children to lead a better life than they 
did. They are going to go with whatever side they perceive is 
going to win, and I think that this is still winnable. We are 
not losing this, but there are some things that I think we 
could do in the international reconstruction effort with more 
focus, more clarity, more dedication, and more rapidly which 
will allow us to have an exit strategy that will become more 
visible quicker.
    Senator Feingold. I really appreciated your comments about 
this. I noticed your call for additional troops. I want you to 
know that I support that. I saw that there was some 
announcement today with regard to this. I also just want it 
noted for the record that no one that I know of has called for 
a timetable to withdraw our troops from this place, as I have 
done with regard to Iraq, because I do believe this is a 
situation that can succeed and we need to do what we can to 
make it succeed.
    I thank you, General.
    General Jones. I agree.
    The Chairman. Thank you very much, Senator Feingold.
    Senator Voinovich.

 STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR FROM OHIO

    Senator Voinovich. Thank you, Mr. Chairman.
    Welcome, General.
    General Jones. Thank you, Senator.
    Senator Voinovich. I recall that when we met in Brussels we 
talked about lots of things and one of them, as you know, that 
is on my heart and mind is what is happening in Kosovo. From 
the information that I have received, there are militia, 
Serbian militia, gathering in the north, in Mitrovica and the 
northern towns, and have said that if Kosovo is declared 
independent that they are going to secede from Kosovo. We are 
concerned that we could have an outbreak there. Also there is 
some concern about some of the enclaves in the southern part, 
where they are concerned that they may be the victims of some 
extremists on the Kosovar side.
    I would hope that you are looking at that and making sure 
that we have the troops that are necessary so everyone knows 
that if you try and do something in this regard it is going to 
be put down immediately. I have also talked with Secretary 
Rumsfeld about it in terms of the Defense Department's 
commitment to it. So that is one thing.
    Second, we are going to be getting together here in 
November with the NATO interparliamentary group, and I think it 
would be really helpful to us if we got an appraisal from you 
of where we stand in terms of their participation in their 
GDP--you have mentioned it already, but other things that we 
ought to be doing in NATO that are not being done, so that we 
can fulfil our obligations.
    So often what happens is the ministerials never talk to the 
parliamentarians, and the parliamentarians really are the ones 
that are charged with the budgets and doing some of these 
things. So it would be really good if we can get that 
information to these folks.
    The other thing that I was impressed with is your approach 
to dealing with this new enemy that we have out that flies 
under no flag. In other words, we have an unconventional enemy, 
and your concept of thinking outside of the box and how to deal 
with this enemy. I have to say, at least from my perspective, 
and I know other Members of the Senate, we are uneasy about 
whether or not we are fighting this war in the correct way.
    If I recall, when we talked, it was about a question of 
allocation of resources, about getting the Defense Department, 
the State Department, USAID, and all of these together to think 
about some kind of a strategy on how we can be more effective 
that may be unlike some of the things that we have done in the 
past.
    I note that you have these provisional reconstruction teams 
now in Afghanistan and I would be very interested to have you 
share with us how effective they are and how that fits in with 
this concept of maybe doing things differently. If you look at 
the chart here, we are talking about counternarcotics, we are 
talking about judicial reform. Japan has disarmament, 
demobilization, reintegration. A lot of these things have got 
nothing to do with armament. They have got to do with some 
other things. I would be interested in your sharing with us how 
you think they are coming along and how we can enhance that 
approach.
    General Jones. Senator, thank you very much. A quick word 
on Kosovo. We have 55 maneuver companies deployed in all of 
Kosovo, 16,000 troops in total. I believe that this force is 
much better trained, much better equipped, fewer number of 
caveats than ever before. We have troops north of the Ivar. We 
are talking all of the time with not only the Kosovar Serbs but 
the Albanians as well. We are working very closely with 
developing the human rapport that we need on the ground to try 
to minimize any outbreak of violence.
    All I can say is that I think we are as prepared as we can 
be and we are trying to do those things that we can do as KFOR 
to minimize that possibility of violence. So I think we are in 
as good a position as we can be and we continue to work this 
problem every day.
    I would be very, very happy to do anything to support the 
interparliamentary group. I think it is extremely important 
that parliamentarians understand not only what NATO is doing, 
but what the new NATO is like, what it does, what it stands 
for, and why should our publics be as interested in the NATO in 
the 21st century as it was in the 20th century.
    I believe that NATO is a very healthy, growing organization 
that is only going to become more important in time. There are 
certain things that I think we should do to help NATO in its 
transformation. There is no question in my mind that one of the 
things that we must do better than we are doing is to explain 
the value of NATO to our people on both sides of the Atlantic, 
because it is a unique organization and it deserves to be 
supported.
    With the question of the new enemy and how to combat the 
new enemy, I think that one of the premiums in terms of shaping 
and affecting the areas where we wish to see a certain outcome 
has to do with the integration of essentially the interagency, 
that the solution set against these enemies is not just a 
military solution, but it is actually how well do we bring all 
instruments of national power to focus simultaneously in an 
orchestrated way to bring about the desired effects.
    One of the examples of a success story I think is the 
United States' PRTs in Afghanistan--provincial reconstruction 
teams. What makes these reconstruction teams so effective is 
that they are empowered. These commanders of these PRTs, 
usually at the rank of lieutenant colonel, have money, have the 
independent authority as to how to allocate that money, and 
they bring about immediate effects in the region to build a 
bridge, open a school, dig a well, turn on some electricity, 
pave a road, coordinate local government officials, help the 
training of the local police, and give a sense of comfort and 
reassurance out in the hinterlands where some day the 
government will be able to get out there and replace the PRTs.
    We will know we are reaching a success point in Afghanistan 
when the government says we do not think this PRT is necessary 
any more--we have got it. But until that day happens, those 
PRTs and those commanders and those people that are working out 
there, sometimes at significant risk, are really worth--I think 
a PRT is worth a battalion. Those 60 to 80 to 100 people that 
are working out there are worth 5,000 troops.
    Proactive engagement is always cheaper than reactive 
engagement. I would rather have 100 people dedicated, doing a 
certain thing every single day for 365 days, than 10,000 troops 
for 60 days.
    Senator Voinovich. Mr. Chairman, I want to say thank you 
very much for your service. I know that you are going to be 
tipping your hat one of these days and I would like to say to 
you, General, that I hope--I am sure that you have been working 
within the system to get your thoughts across about how we deal 
with this new enemy, but I would hope that once you leave that 
you are not reluctant to speak out and perhaps do some white 
papers to try and get your message across to Members of 
Congress and to the American public, because I think it is 
really needed at this time.
    Thank you, thank you, thank you for your service.
    The Chairman. I join my colleague, Senator Voinovich, once 
again, General, in thanking you. I just have to recall--and I 
hope you are not embarrassed by the recollection--that we 
toured Europe together in the early 1980s. You were then a 
major, not a four-star general. I was a very young Senator. We 
are a bit older now, but your service has been just remarkable 
and we just so much appreciate your coming today.
    We thank you for your comment that our hearing might in a 
small way provide a conversation that others might listen to, 
including folks at the United Nations, people in other 
countries, people in our own government who are trying to 
coordinate. That was our purpose in asking you and Mr. Barnett 
to come today, so we could have this focus and have a wider 
audience through C-SPAN and other media efforts that will also 
engage in the topic.
    General Jones. Senator, if I could also thank you for not 
only our long-term relationship, but also just for the energy 
that you have brought to NATO as well with your personal 
commitment to reexplaining NATO and getting people to 
understand why NATO is, although a different organization in 
this new century, is one that potentially can make just as 
great a contribution as it did in the 21st century. Your voice 
has been very supportive and very helpful. It is felt on both 
sides of the Atlantic and we definitely appreciate the support 
you have given us. It has meant a lot and we thank you, sir.
    The Chairman. Thank you for that encouragement.
    We will now let you head off in your travel plans with best 
wishes.
    We welcome now Dr. Barnett Rubin. Dr. Rubin is the author 
of the Council on Foreign Relations special report entitled 
``Afghanistan's Uncertain Transition From Turmoil to 
Normalcy,'' which was published in March of this year. He has 
recently revisited Afghanistan, July 29 through August 8, to 
supplement information from that report and hopefully to 
supplement our information today about this very important 
country and our mission and the mission of other countries.
    Dr. Rubin, we welcome you. Your statement is a remarkable 
document and will be made a part of the record in full, and you 
may proceed however you would like to, either in summary or in 
delivering portions of the statement.

 STATEMENT OF BARNETT R. RUBIN, DIRECTOR OF STUDIES AND SENIOR 
     FELLOW, CENTER ON INTERNATIONAL COOPERATION, NEW YORK 
                    UNIVERSITY, NEW YORK, NY

    Dr. Rubin. Thank you very much, Mr. Chairman, for holding 
this hearing and for inviting me to take part. I appreciate it. 
I will make some remarks on a few themes that I would like to 
highlight, and as I was listening to the exchange with General 
Jones I also made a note of a few points that were raised by 
the Senators here and by him that I could elaborate on some.
    First, let me say that, while my statement and my summary 
here are full of somewhat somber prognostications and analyses, 
none of this is meant to denigrate the accomplishments that 
have occurred and the sacrifices made, I should note, not only 
by soldiers, but also by civilians who have given their lives 
in this effort, both Afghan and international.
    In fact, one of the people I saw on my trip, Governor Hakim 
Taniwa of Paktia, was assassinated by a suicide bomb just about 
10 days ago, and I wrote an article about that that appeared in 
the Washington Post last Sunday, quoting him primarily.
    I think the point is that, rather than asking whether a 
glass is half full or half empty, we should be concerned first 
about how stable the table is on which it is standing. While we 
have accomplished a lot, at the moment the base in Afghanistan 
is extremely weak. Partly that is because of some of the 
effects of Iraq, partly it is for other reasons which I will 
discuss.
    First, overall people in the region, both those who would 
like to work with us to some extent and those who are working 
against us, make an evaluation of how serious and committed we 
are, that the United States is. Overall most people in 
Afghanistan and around the region in my estimation do not 
believe that succeeding in Afghanistan is a very high priority 
of the United States. The basis for that is not what we say, 
but what we do. It is based on their observation that we have 
put 10 times as much effort into the war on Iraq, that we have 
undercut--that we have very much underspent on Afghanistan, 
that, as General Jones said, we did not put troops into the 
very areas that were the heartland of the Taliban, and in 
general indicated that we were not committed there. They have 
acted as a result of that analysis.
    Second, I wanted to emphasize what also came up, that 
Afghanistan is extremely poor. But let me--I think perhaps we 
do not appreciate how poor Afghanistan is. Afghanistan is the 
poorest country in the world except for a handful of countries 
in sub-Saharan Africa, like Burundi and Sierra Leone. Now, when 
I mention those two countries that indicates how such extreme 
poverty leads to violent conflict.
    The fact that the country is so extremely poor translates 
into an extremely weak government. The total revenues of the 
Government of Afghanistan are approximately 5 percent of its 
minuscule legal GDP. Therefore, when we talk about the 
Government of Afghanistan taking strong measures to do 
something or other, like arresting some of the most powerful 
people in the country, we must bear in mind what resources it 
has and how little assistance we have given it in doing that.
    When we talk about the Government of Afghanistan, for 
instance, not taking strong measures against drug traffickers, 
we must bear in mind that many of those drug traffickers were 
empowered by the United States, who provided them with 
assistance to come into effective power, and that even in cases 
when President Karzai wanted to remove some of them from power 
his hand was stayed by some agencies of the United States 
Government who still found those people useful. So there is 
more of a picture than sometimes is presented.
    The next point is this problem in Afghanistan--I cannot 
emphasize this too much--is not a problem in Afghanistan, 
besides the fact that of course it is connected to global 
terrorism. It is a joint problem of Pakistan and Afghanistan. 
The global center of terrorism now is in Pakistan. That is 
where the plot in Britain was hatched. That is where Osama bin 
Laden is.
    I would also draw your attention to something very 
important that General Jones said very briefly in response to a 
question by Senator Hagel. Senator Hagel asked him, is it true 
that the headquarters of the Taliban is in Quetta. General 
Jones said that is generally accepted. Now, what does that 
mean? It means the headquarters of the Taliban is in the 
capital city of one of the four provinces of Pakistan. The 
headquarters of the Taliban is not in a mountain cave 
somewhere. It is not along the border. It is in the capital of 
one of Pakistan's provinces, and the Government of Pakistan, 
according to the unified assessment of the security agencies, 
Afghan and international, in Kabul, is that the Government of 
Pakistan has done virtually nothing to disrupt the command and 
control of the Taliban, which is based in Pakistan.
    Now, I recently received, in anticipation of this 
testimony, a message from a very senior diplomat from a NATO 
troop contributing country who is in Kabul. He said the 
following to me. As you know, next week President Bush is going 
to meet with President Musharraf and President Karzai together. 
President Musharraf I believe is in Washington today.
    Now, this diplomat wrote to me: ``All eyes are now on the 
27 September meeting in Washington and the bilateral talks that 
will precede it. Without the use of overwhelming diplomatic 
force by the U.S. President against President Musharraf, little 
progress can be expected. There needs to be rapid arrests of 
the top 50 Taliban commanders in and around Quetta, full stop. 
Anything less will not do. Pakistani protests that they lack 
the capacity are spurious.
    ``The Iran issue and Pakistani domestic politics argue 
against the United States using the big diplomatic stick, but 
we need it now. Otherwise, a slide''--meaning the slide in 
security and stability in Afghanistan--``will continue.''
    Mr. Chairman, the fact that the Taliban have their 
headquarters and command and control in Pakistan and a safe 
haven there is not the only reason there is an insurgency in 
Afghanistan. There are massive failings on the part of the 
Government of Afghanistan, as is only to be expected since it 
is the weakest government in the world. But no insurgency has 
been defeated when it has a safe haven abroad. So shutting down 
this safe haven is the key to addressing those massive internal 
problems in Afghanistan.
    On internal security, I fully endorse what General Jones 
said about the importance of the rule of law, police, and 
judiciary. If I may note, there is a general problem in U.S. 
policy with regard to post-conflict nation-building or state-
building which transcends this administration, though perhaps 
it is more serious in this administration, which is we tend to 
focus on democratization, that is on elections, a constitution, 
and so on. We very much neglect the building of state 
institutions which are needed to make that relevant.
    It does not matter, if you freely elect your legislators, 
if there are no institutions to enforce the laws that they pass 
or through whom the executive can assure that those laws are 
faithfully carried out. So without police, judiciary, and so 
on, democracy is a hollow and meaningless shell, and that 
increasingly is how people in Afghanistan perceive it.
    Next, on narcotics. I would like--sometimes when people 
call for a stronger counternarcotics policy, which I fully 
endorse, they focus on crop eradication as if crop eradication 
were the central point of counternarcotics. I would submit that 
that is an error. First, we have to be clear about what is the 
goal of our counternarcotics policy in Afghanistan, where does 
the harm come from. We are not trying to or we should not be 
trying to solve the world's problem of drug addiction in 
Afghanistan. If we, with all our capacity, cannot stop drug 
addiction in the United States, we are certainly not going to 
use law enforcement successfully to eliminate half the economy 
of the poorest and best armed country in the world.
    Therefore we must focus on the real harm which comes from 
drug money. Now, 80 percent of the drug money inside 
Afghanistan, regardless of the--90 percent of the total income 
from drugs goes outside of Afghanistan. Inside Afghanistan, 80 
percent of the drug money is in the hands of traffickers and 
warlords, not farmers. When we eradicate crops, the price of 
poppy goes up and the traffickers who have stocks become 
richer.
    Therefore we should be focusing on the warlords and 
traffickers, on interdiction and so on, while we are helping 
the poor farmers. That is also consistent with our efforts, 
with our political interests of winning the farmers over and 
isolating those that are against us.
    Furthermore, it is a mistake to consider the drug problem 
in Afghanistan as something that is isolated in the major 
poppy-growing areas. For instance, now there is fighting in 
Helmand Province, which is the major poppy producing area in 
the world. Because you cannot--because there is fighting going 
on, it is not possible to implement a counternarcotics strategy 
in Helmand. We need to implement rural development throughout 
Afghanistan, especially in the areas where there is no poppy, 
in order to show people what is possible and build an 
alternative economy.
    Finally, a word about Iran. Iran, of all the countries 
around Afghanistan, is making the strongest counternarcotics 
effort. We have a very strong common interest with Iran in 
making that counternarcotics effort. That, among other things 
in Afghanistan, are areas where we have common interests with 
Iran, which I submit we should be pursuing just as we 
simultaneously pursue those areas where we have conflict of 
interest with Iran.
    If I may issue a warning, anyone who tries to sell you 
intelligence reports that Iran is destabilizing Afghanistan is 
misrepresenting the facts. The destabilization of Afghanistan 
insofar as it is coming from abroad is coming from Pakistan, 
regardless of the fact that President Musharraf speaks good 
English, wears a suit, and says things that we like to hear.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Rubin follows:]

  Prepared Statement of Dr. Barnett R. Rubin, Director of Studies and 
     Senior Fellow, Center on International Cooperation, New York 
                        University, New York, NY

    ``The pyramid of Afghanistan government's legitimacy should not be 
brought down due to our inefficiency in knowing the enemy, knowing 
ourselves and applying resources effectively.''--Saleh, 2006.\1\
---------------------------------------------------------------------------
    \1\ A. Saleh, Strategy of Insurgents and Terrorists in Afghanistan, 
National Directorate of Security, Kabul Afghanistan, May 2006. I 
obtained a copy of this document from a U.S. source in Washington, DC.

    In the past 6 months, a number of events have raised the stakes in 
Afghanistan and further threatened the international effort there. The 
handover of command from the United States-led coalition to NATO means 
that Afghanistan is now not only the first battleground of the so-
called ``war on terror,'' but a testing ground for the future of the 
Atlantic alliance. The Taliban-led insurgency based in Pakistan has 
shown new capabilities in the south and east, challenging both the 
United States and NATO, while suicide bombings, unknown in Afghanistan 
before their successful use by the Iraqi insurgents, have sown terror 
in Kabul and other areas as well.\2\ A particularly daring attack on a 
Coalition convoy killed 16 people, including two United States 
soldiers, close to the United States embassy, in one of the most 
heavily defended areas of Kabul on September 8.
---------------------------------------------------------------------------
    \2\ Hekmat Karzai and Seth Jones, ``How to curb suicide terrorism 
in Afghanistan,'' Christian Science Monitor, July 18, 2006.
---------------------------------------------------------------------------
    On May 29, in Kabul, an accidental crash of a United States 
military vehicle that killed an Afghan sparked a riot in which 17 
people were killed. Rioters, who chanted slogans against the United 
States, President Karzai, and foreigners in general, attacked NGOs, 
diplomatic residences, brothels, hotels and restaurants where they 
thought alcohol was served, media offices, businesses, and the 
parliament. These riots exposed the incapacity of the police, many of 
whom disappeared, and the vulnerability of the government to mass 
violence, even in the capital. This event exacerbated ethno-factional 
tensions within the governing elite, as the President accused 
opposition leaders of exploiting acts of violence by demonstrators 
largely from Panjsher, home of the leading group of the Northern 
alliance, charges that Panjsheri leaders denied.\3\ The riots showed 
violent opposition to the government and the United States, not from 
the Taliban, but also from members of a group that had led the 
resistance to the Taliban.
---------------------------------------------------------------------------
    \3\ The accident occurred in Khairkhana, an area of Kabul largely 
populated by Tajiks from regions north of the capital.
---------------------------------------------------------------------------
    With many trends pointing in the wrong direction, it is time to 
rethink strategy and significantly increase both the level of resources 
available and the effectiveness of their use. As the largest troop 
contributor and aid donor, the United States has to lead this 
transformation. For decades United States policy makers of all 
administrations, however, have underestimated the stakes for the United 
States and the world in Afghanistan, and they continue to do so today.
    Contrary to the analysis of the Bush administration, whose response 
to September 11 wandered off to Iraq and dreams of a ``New Middle 
East,'' the main center of global terrorism is in Pakistan, especially 
the Pakistan-Afghanistan border region. In the words of one military 
commander, ``Until we transform the tribal belt, the United States is 
at risk.'' Far from achieving this objective, in 2001 the United 
States-led coalition pushed the core leadership of al-Qaida and the 
Taliban out of Afghanistan into Pakistan without a strategy for 
consolidating this tactical victory. Thereafter, while the Bush 
administration focused on unrelated or overblown threats elsewhere, it 
failed to provide those Taliban who did not want to fight for al-Qaida 
with a way back to Afghanistan, instead adopting a policy of 
incommunicado detention in Guantanamo, Bagram, and ``black sites,'' 
making refuge in Pakistan a more attractive option. Drawing in part on 
such fugitives and in part on newly minted recruits from militant 
madrasas and training camps that continued to operate without 
impediment, the Taliban reconstituted their command structure, 
recruitment networks, and support bases in Pakistan, while Afghans 
waited in vain for the major reconstruction effort they expected to 
build their state and improve their lives. As a result, a cross-border 
insurgency is now exploiting the weaknesses of an impoverished society 
and an ineffective government to threaten the achievements of the last 
5 years.
    The frustration of those on the ground is palpable.
    A Western diplomat who has been in Afghanistan for 3 years opened 
our meeting with an outburst: ``I have never been so depressed. The 
insurgency is triumphant,'' he said, accusing the United States and the 
entire international community in Afghanistan of ``appeasement'' of 
Pakistan, from where Taliban leaders direct the insurgency and 
terrorist attacks. ``Things are looking very dark,'' wrote an Afghan-
American woman who is risking her life working in one of the most 
dangerous areas of southern Afghanistan, where the burgeoning opium 
trade supports insurgency, criminality, and lawlessness. An elder from 
Kunar Province in eastern Afghanistan said that government efforts 
against the insurgency are weak because communities will not share 
information with the authorities: ``The people don't trust any of the 
people in government offices.'' An unemployed engineer who lives in 
Kabul and an elder from the northern province of Baghlan echoed the 
sentiment: ``The people have totally lost trust in the government,'' 
said the former; ``the people have no hope for this government now,'' 
said the latter. ``There is a big distance between the current system 
and Islamic virtues,'' said an elder from Paktia in eastern 
Afghanistan, citing the bribery of judges.\4\
---------------------------------------------------------------------------
    \4\ I would like to thank Hamed Wardak for organizing meetings with 
elders through his movement, Fidayini Sulh (Sacrificers for Peace). 
Wardak did not attend the meetings and bears no responsibility for the 
views expressed.
---------------------------------------------------------------------------
    A former minister, now a leader in the parliament, commented, ``The 
conditions in Afghanistan are ripe for fundamentalism. Our situation 
was not resolved before Iraq started. Iraq has not been resolved, and 
now there is fighting in Palestine and Lebanon. Then maybe Iran. . . . 
We pay the price for all of it.'' ``So many people have left the 
country recently,'' recounted a U.N. official, ``that the government 
has run out of passports.'' An elder from the southern province of 
Uruzgan, who had sheltered Hamid Karzai when he was working underground 
against the Taliban, told how he was later arrested by Americans who 
placed a hood on his head, whisked him away, and then released him. He 
shrugged off the indignity: ``I understand that in this country if you 
do good, you will receive evil in return. This is our tradition.'' He 
added, however, ``What we have realized is that the foreigners are not 
really helping us. We think that the foreigners do not want Afghanistan 
to be rebuilt.''
    Yet no one advocated giving up. The same elders who expressed 
frustration with the corruption of the government and its distance from 
the people also said, ``We have been with the Taliban and have seen 
their cruelty. People don't want them back.'' Fruit traders from 
Qandahar who complained that, ``The Taliban beat us and ask for food, 
and then the government beats us for helping the Taliban,'' also said 
that President Karzai was the country's best leader in 30 years--a 
modest endorsement, given the competition, but still significant. One 
military leader opined, ``My working assumption is that the 
international community needs to double its resources. We can't do it 
on the margins. We have no hedge against domestic and regional counter-
forces.'' But, he concluded, ``It's still ours to lose.''
                          intensified threats
    With access to a safe haven for its leadership, training, supplies, 
funding, and recruitment in Pakistan, with additional funding from Arab 
donors in the Persian Gulf, the Taliban-led insurgency has increased 
its effectiveness and both broadened and deepened its presence. The 
government and international forces have prevailed in virtually all 
tactical engagements. The weakness of the government and the 
reconstruction effort, however, has often prevented consolidation of 
tactical gains, while the failure to deny the insurgency its safe haven 
in Pakistan has blocked strategic victory. The invasion of Iraq under 
false premises and the United States' unstinting support for Israel's 
staggering reprisals against Lebanon have handed the insurgency 
additional propaganda victories, further weakening the United States' 
allies in both Afghanistan and Pakistan. The increased tempo of suicide 
bombings and attacks on school buildings even outside the insurgency's 
main area of operation has spread insecurity into Kabul itself. One 
suicide bomber was stopped in Kabul by police during my visit; and a 
major attack on September 8 killed 16 people in the most secure area of 
the city.
    The Taliban's recent offensives were partly responses to changes 
initiated by the international forces. The United States-led coalition 
has handed off command of the southern region of Afghanistan to NATO, 
which was already in charge in the north and west. The NATO force has 
deployed to areas, notably Helmand province, where the coalition had 
neither ousted the Taliban nor made substantive efforts to stem the 
drug trade (Helmand now produces about half of the world's total supply 
of opium). The Taliban offensives in the south have aimed to press 
public opinion in the principal non-United States NATO troop 
contributing countries (the United Kingdom, Canada, and the 
Netherlands) to force a withdrawal. This is NATO's first military 
operation, the success of which is essential to the future of the 
alliance; as one United States official put it, ``The failure of NATO 
in Afghanistan is not an option.''
    The Taliban have increased the size of their units, their 
maneuverability, and their intelligence capabilities to establish a 
large and resilient presence in the rural areas of the south. The 
resiliency of their presence, the effectiveness of some of their 
institutions, and their ruthless retribution against those charged with 
collaboration has neutralized much of the population. They have 
established a parallel administration in some areas and they 
occasionally take control of outlying districts. Though some of their 
officials (such as provincial governors) are based in Pakistan, people 
are increasingly patronizing Taliban courts, seen as more effective and 
fair than the corrupt official system.
    International military officials in Afghanistan state that 
intelligence confirms that the Pakistani Directorate of Inter-Services 
Intelligence (ISI) is providing aid to the Quetta shura (council), the 
main center of Taliban strategic command and control in southern 
Afghanistan. Quetta is the capital of the province of Baluchistan, 
where Pakistani military dealt a blow to a Baluch ethnic nationalist 
insurgency and killed one of its key political leaders, the 79-year-old 
former Governor Nawab Akbar Bugti, while leaving the Taliban command 
center untouched.
    In Kabul on September 7, General Musharraf virtually admitted these 
charges. According to the New York Times, ``General Musharraf said that 
his government had rounded up al-Qaeda supporters in Pakistan's cities 
and had pursued foreign fighters in the frontier tribal areas, but he 
said the focus has now shifted to dealing with the Taliban. . . . `We 
have to see where their command structure is, who is their commander, 
and we must destroy the command structure','' [said General 
Musharraf].\5\
---------------------------------------------------------------------------
    \5\ Carlotta Gall, ``Pakistani Leader Admits Taliban Cross Into 
Afghanistan,'' New York Times, September 7, 2006.
---------------------------------------------------------------------------
    Another Taliban shura, directing operations in eastern Afghanistan, 
is based in the Pakistani tribal agencies of north and south 
Waziristan. It has consolidated its alliance with Pakistani Taliban, as 
well as foreign jihadi fighters from Uzbekistan and elsewhere. Just one 
day before Musharraf's statement in Kabul, Pakistani authorities signed 
a peace deal with the local Taliban in north Waziristan. The Taliban 
are expected not to cross over into Afghanistan to attack United States 
and Afghan forces and refrain from killing local tribal leaders, while 
the foreign militants (Uzbeks, Chechens, and Arabs affiliated with al-
Qaida) are expected to either live peacefully or leave the region in 
peace. Within hours of the signing ceremony, a legislator from the 
region told media that there never were any foreign militants in the 
region. In neighboring south Waziristan tribal district, similar peace 
deals in 2004 empowered the Taliban to the extent that they now control 
the region. The agreement was widely perceived as a confession of 
failure by the Pakistani military that conceded the Taliban a haven in 
return for a face-saving agreement that will not be implemented.
    Further north, veteran Islamist leader, Gulbuddin Hikmatyar, a 
favorite of the ISI since 1973, operates from Peshawar and the Bajaur 
and Momand tribal agencies adjacent to northeast Afghanistan.
    The insurgency cannot be explained solely by its sanctuary in 
Pakistan, but few insurgencies with safe havens abroad have ever been 
defeated.\6\ While bad governance and corruption are indeed rampant in 
southern and eastern Afghanistan, conditions are no better in northern 
and western Afghanistan, where poverty, narcotics, corruption, and 
criminality have bred insecurity and violent clashes over resources, 
but not an anti-government insurgency.
---------------------------------------------------------------------------
    \6\ Seth Jones, Averting failure in Afghanistan, Survival, Spring 
2006.
---------------------------------------------------------------------------
    While ending foreign sanctuary for the Taliban is necessary, it 
will not be sufficient to stabilize Afghanistan. The state and economy 
need urgent reform and assistance. While no statistics are available, 
people in Kabul and throughout the country complain that crime is 
increasing, and that the police are the main criminals. The formation 
of the Afghan National Army, a professional force now approaching 
35,000 men, has been one of the success stories of the past 5 years. 
One reason for the army's professionalism has been that nearly all 
infantry are fresh recruits. Many of the over 60,000 men who have been 
demobilized from militias have joined the police, private security 
firms, or organized crime, and sometimes all three. One former 
mujahidin commander who became a general in the ministry of the 
interior is widely reported (including by his former mujahidin 
colleagues) to be a major figure in organized crime, who was 
responsible for the murder of a cabinet minister in February 2002. He 
is also a partner in the local branch of a U.S.-based firm, which 
provides many international offices with security guards, most of them 
fighters from this commander's militia and subsequently his employees 
in the ministry of the interior.
    Researchers on narcotics trafficking report that, as commanders 
demobilized from the ministry of defense have found positions in the 
ministry of the interior, the latter became the main body providing 
protection to drug traffickers. Positions as police chief in poppy-
producing districts are sold to the highest bidder; the going rate was 
reported to be $100,000 for a 6-month appointment to a position with a 
salary of $60 per month.
    Such a corrupt police force, which also lacks training and basic 
equipment (batons, tear gas, water cannons, plastic shields, secure 
communications) utterly failed when confronted with a few hundred 
rioters. In combination with his continuing contention with the 
chairman of the lower house of parliament, Muhammad Yunus Qanuni, a 
major figure from the leading faction of the Northern alliance whom 
President Karzai suspected of exploiting the riots, the President 
appointed members of a rival Northern alliance group to key police 
positions, including police chief of Kabul.\7\ In order to do so, the 
president overrode the ranking of candidates based on merit that the 
new process of MOI reform required for high-level police appointees. He 
did so with the assent of U.S. officials, who claim that they needed to 
gain approval of others on the list in order to improve security in 
insurgency-affected areas of the south and that they lacked information 
on the new appointees. President Karzai argues that he is forced into 
such unpalatable balancing acts because the international community 
failed for years to respond to his requests for adequate resources for 
the police. Whatever the reasons, many Afghans interpret the 
appointment of Amanullah Guzar as police chief of Kabul and Basir 
Salangi as police commander of Nangarhar, as placing organized crime in 
charge of both the security of Kabul and the capital's key supply route 
from Pakistan.
---------------------------------------------------------------------------
    \7\ Some of the rioters, who appeared to be mainly from Panjsher, 
carried pictures of the late Ahmed Shah Massoud and chanted anti-Karzai 
slogans. Qanuni firmly denies any involvement and states that the 
rioters also tried to attack the parliament. The new appointees, while 
previously allied with Massoud, came from the Shamali plain between 
Panjsher and Kabul and assured Karzai of their loyalty during the 
riots.
---------------------------------------------------------------------------
    Afghan traders and elders reported several kidnappings of rich 
businessmen or their sons, in some cases leading to the payment of 
large ransoms, and in other cases ending in the murder of the captive. 
Most report that the kidnappers wore police uniforms and used vehicles 
with blackened windows like those used by officials. On August 24, 
robbers wearing police uniforms robbed a bank van of $60,000 in cash 
within easy walking distance of the MOI headquarters in Central Kabul. 
Such incidents have led to the departure of Afghan investors, 
contributing to an economic slowdown that is aggravating unemployment 
and discontent.
    One difference between Iraq and Afghanistan has been that, while 
Iraq has suffered an economic collapse as a result of the United States 
invasion, Afghanistan averaged real non-drug annual growth rates over 
15 percent. The country was so poor (the world's poorest country 
outside of sub-Saharan Africa) that the expenditures of foreign forces 
and organizations combined with the end of a drought, a relatively 
small amount of aid, and narcotics profits could power a recovery from 
a 23-year war.
    But as a World Bank official put it, ``It has not been reliable, 
sustainable growth.'' Afghans emphasized how unemployment feeds 
conflict: ``Those Afghans who are fighting, it is all because of 
unemployment,'' said a fruit trader from Qandahar. And this year the 
bubble economy has been punctured. Real estate prices and rents are 
dropping in Kabul, and occupancy rates are down. Fruit and vegetable 
sellers report a decline in demand of about 20 percent. Construction 
workers and members of the building trades in Kabul reported a decline 
in employment, leading to a drop in wages by about 20 percent. A 
drought in some parts of the country has also led to displacement and a 
decline in agricultural employment, for which the record opium poppy 
crop only partially compensated.
    A major economic issue that is aggravating relations between 
Afghans and the international community is the supply of electricity to 
Kabul. In the past 5 years, no major power projects have been 
completed. A plan to bring power to Kabul from Central Asia is 2-3 
years from completion. As the city's population expands toward 5 
million (up from 2.3 million 5 years ago), Kabulis today have less 
electricity than they did 5 years ago. While foreigners and the rich 
power air conditioners, hot water heaters, high-speed Internet, and 
satellite TV with private generators, average Kabulis are now ending a 
summer without fans, and fearing a winter without heaters.
    For the past 2 years, Kabul got through the winter with power 
supplied by diesel generators, whose fuel was purchased by the United 
States. This year the United States made no such allocation, claiming 
that Afghanistan did not ask for it. Regardless of who is at fault, 
without the purchase of diesel, Kabul will have even less power in the 
next 2 years than in the past.
    The narcotics economy, however, is booming. According to the U.N. 
Office of Drugs and Crime (UNODC), production of opium poppy with a 
record crop of 6,100 metric tons this year surpassed last year's by 49 
percent, overtaking the previous record crop of 1999, before the 
Taliban ban.\8\ This massive increase in production belies the claims 
of progress made on the basis of a 5 percent decrease last year. The 
Taliban exploited the counterproductive policy of crop eradication 
pressed on an unwilling Afghan Government by the United States. They 
gained the support of farmers in Helmand and elsewhere by providing 
protection against eradication. As I have argued elsewhere, eradication 
before significant economic development is ineffective and 
counterproductive.\9\ While the Taliban protect small farmers and 
sharecroppers from eradication, not a single high government official 
has been prosecuted for drug-related corruption, though many known 
traffickers occupy high office.
---------------------------------------------------------------------------
    \8\ Carlotta Gall, ``Opium harvest at record level in 
Afghanistan,'' New York Times, September 2, 2006.
    \9\ Barnett R. Rubin, Road to Ruin--Afghanistan's booming opium 
industry, Center on International Cooperation and Center for American 
Progress, October 7, 2004.
---------------------------------------------------------------------------
                            recommendations
    For several years, the United States responded to President 
Karzai's repeated warnings about the Taliban's sanctuary in Pakistan by 
assuring him that Pakistan was cooperating, that public statements were 
counterproductive, and that the United States would soon take care of 
the problem. Assurances that the United States would soon mop up the 
``remnants'' of the Taliban and al-Qaida have proved false. Nor did the 
United States or others respond with adequate resources or programs to 
strengthen the Afghan state and its relations to the communities in a 
way that would make Afghanistan more resistant to the Taliban. 
President Karzai's strategy of temporizing with corrupt and abusive 
power-holders has also weakened the state building effort, but he 
claims he has had inadequate support and resources to undertake a 
stronger policy. New approaches and more resources are required on both 
fronts.
                      ending sanctuary in pakistan
    Western and Afghan officials differ over the extent to which 
Pakistan's aid to the Taliban is ordered or tolerated by the highest 
levels of the military, but they have reached a consensus, in the words 
of one senior military leader, that Pakistani leaders ``could disrupt 
the senior levels of [Taliban] command and control,'' but that they do 
not do so. President Musharraf virtually admitted in Kabul that they 
had not even tried. Disruption of command and control is the key to 
strategic victory, not control over infiltration, a tactical issue to 
which Pakistan consistently tries to divert discussion. A recent 
agreement by Afghanistan and Pakistan to conduct joint patrols on the 
Durand Line (which Afghanistan does not recognize as a border) to 
combat infiltration may help build the relationship, but it will not 
end the sanctuary in Pakistan.\10\
---------------------------------------------------------------------------
    \10\ Ron Synovitz, ``Afghanistan: U.S. Reports `Breakthrough' on 
Afghan-Pakistan Security Cooperation,'' RFE/RL, August 25, 2006.
---------------------------------------------------------------------------
    The failure by Pakistan even to try to disrupt the Taliban's 
command and control in Quetta is a major threat to international peace 
and security. But pressure to stop these activities is not enough. The 
Pakistani military's alliance with Islamist militant groups is a 
response to perceived threats, a way of managing an outmoded border 
regime, and the basis of the domestic legitimacy of the state.
    To confront the immediate threat requires serious pressure. The 
first condition for serious pressure is to convey a consistent message. 
There is no need to berate Pakistan in public, but United States 
officials should at least stop congratulating Islamabad for something 
it has not done. CENTCOM Combatant Commander General John Abizaid, for 
instance, stated in Kabul on August 27 that he ``absolutely does not 
believe'' that Pakistan is helping the Taliban.\11\
---------------------------------------------------------------------------
    \11\ Fisnik Abrashi, ``Abizaid; Pakistan not aiding Taliban,'' The 
Associated Press, August 27, 2006.
---------------------------------------------------------------------------
    Efforts are already under way by the four troop contributors in 
southern Afghanistan (the United States, United Kingdom, the 
Netherlands, and Canada) and by NATO as a whole, to devise a common 
demarche. This effort should be expanded to include Russia and China as 
well. The central message of this demarche should be that failure to 
take forceful action against the Taliban command in Baluchistan--at 
least as strong as the action taken against the Baluch ethnic 
insurgency, which led to the killing of former Governor Nawab Akbar 
Bugti--constitutes a threat to international peace and security as 
defined in the U.N. Charter. Pakistan, whose leaders seek parity with 
their rival, India, in part by acting as a full participant in the 
international community through contributions to U.N. peacekeeping 
operations and the fight against al-Qaida, will seek to avoid such a 
designation, with the various consequences that might flow from it. 
Pakistan should not benefit from United States military assistance and 
international aid and debt relief while it fails even to try to 
dismantle the command structure of the Taliban.
    Threats, explicit or implicit, are not enough. A realistic 
assessment of Pakistan's role does not require moving Pakistan from the 
``with us'' to the ``against us'' column in the war on terror account 
books, but recognizing that Pakistan's policy derives from its leaders' 
perceptions, interests, and capabilities, not from ours. The haven and 
support the Taliban receives in Pakistan derive in part from the 
hostility that has characterized relations between Pakistan and 
Afghanistan for as long as both have existed. That hostility, in turn, 
is partly driven by century-long grievances of Afghanistan, the threat 
that Pakistan perceives from India, and the precarious nature of 
Pakistan's national unity, especially the dissidence of the Pashtun and 
Baluch, which Afghanistan has often supported.\12\
---------------------------------------------------------------------------
    \12\ Rubin and Siddique, ``Ending the Afghanistan-Pakistan 
Stalemate,'' USIP Special Report, September 2006.
---------------------------------------------------------------------------
    The unified front that all major powers must show to Pakistan in 
opposition to its harboring of the Taliban command centers must be 
matched by offers to recognize the country's international status in 
return for accountability for past nuclear proliferation, and to 
address its conflicts with its neighbors. The United States, NATO, and 
others should encourage the Afghan Government to initiate a dialog over 
the domestically sensitive issue of recognition of the Durand Line 
between the countries as a border, in return for secure trade and 
transport corridors to Pakistani ports. Transforming the border region 
into a frontier of cooperation rather than conflict will require 
political reforms and development efforts in the tribal territories, 
which will require further assistance, but, to repeat one United States 
senior leader's words, ``Until we transform the tribal belt, the United 
States is at risk.'' The United States should also weigh in with India 
and Afghanistan to assure that they make extra efforts to assure 
Pakistan that their bilateral relations will not threaten Islamabad.
    Such a shift in United States policy toward Pakistan requires a 
transformation from supporting President Musharraf to supporting 
democracy. Pakistan's people have shown in all national elections that 
they support centrist parties, not the Islamist parties on which the 
military has relied. The killing of Nawab Akbar Bugti by the army has 
sparked revulsion throughout the political spectrum, weakening the 
military's position and strengthening calls within Pakistan to resolve 
internal and external disputes through political means, rather than 
violence. The reassertion of the civilian political center, as well as 
of Pakistan's business class, which is profiting from the 
reconstruction of Afghanistan, provides an opportunity to move beyond 
the United States' history of reliance on military rulers toward a more 
stable relationship with a Pakistani nation moving toward peace with 
its neighbors and with itself.
                        strengthening the state
    Creating a reasonably effective state in Afghanistan is a long-term 
project that will also require an end to major armed conflict, economic 
development, and the gradual replacement of narcotics by other economic 
activities. Recent crises, however, have exposed internal weaknesses 
that require both long-term programs and transitional measures.
    The two fatal weak points in Afghanistan's Government today are the 
ministry of the interior and the judiciary. Both are pervaded by 
corruption and lack basic skills, equipment, and resources. Without 
effective and honest administrators, police, or judges, the state can 
do little to provide internal security.
    Within the last year, Coalition military forces have devised a plan 
for the thoroughgoing reform of the MOI. The Coalition estimates that 
this plan is 3 years behind the similar program for the ministry of 
defense, and that it will take at least a year before Afghans see any 
effects on the ground.
    In Afghanistan, the president and minister of interior appoint all 
administrative and police officials throughout the country. The 
Afghanistan Compact requires the government to establish, by the end of 
September, a mechanism to vet such appointments for competence and 
integrity. Finding competent people willing to risk their lives in a 
rural district for $60-$70 a month will remain difficult, but such a 
mechanism should help avoid appointments such as those hastily made in 
June.
    Government officials have identified the biggest gap in the 
administration as the district level. Elders (community leaders) from 
over 10 provinces agreed, repeatedly complaining that the government 
never consults them. Some ministers have proposed paying 5 to 10 elders 
and ulama (learned clergy) in each district to act as the eyes and ears 
of government, to be brought to meet governors and the president, to 
have authority over small projects, and influence what is preached in 
the mosques. They estimate the cost of such a program at about $5 
million per year.
    These leaders could also help recruit 200 young men from each 
district to serve as auxiliary police. They would receive basic police 
training and equipment to serve under a police commander who has gone 
through the reform process. Unlike militias, auxiliary policeman would 
be paid individually, and the commander would be a professional from 
outside the district. The elders would be answerable for their 
behavior.
    Courts, too, may require some temporary auxiliary institutions. 
Community leaders complained constantly about judicial corruption. Many 
demanded the implementation of shari'a law, which they contrasted not 
to secular law, but to corruption. As an elder from Paktia said, 
``Islam says that if you find a thief, he has to be punished. If a 
murderer is arrested, he has to be tried and executed. In our country, 
if a murderer is put in prison, after 6 months he bribes the judge and 
escapes. If a member of parliament is killed, as in Laghman, his 
murderer is released after 3-4 months in prison because of bribery.''
    Lack of law enforcement undermines the basic legitimacy of the 
government. Enforcement by the government of the decisions of Islamic 
courts has always constituted a basic pillar of the state's legitimacy 
in Afghanistan, and failure to do so brands a government as un-Islamic.
    The August 5 swearing in of a new Supreme Court, which administers 
the entire judicial system, will make judicial reform possible, but 
training a corps of prosecutors, judges, and defense lawyers will take 
years. The only capacities for dispute resolution and law enforcement 
that actually exist in much of the country consist of informal village 
or tribal councils and mullahs who administer a crude interpretation of 
shari'a. During the years required for reform, the only genuine 
alternatives before Afghan society will be enforcement of such 
customary or Islamic law, or no law. The Afghan Government and its 
international supporters will therefore have to find transitional ways 
to incorporate such procedures into the legal system by recognizing 
them and subjecting them to judicial or administrative review. Such a 
program would also put more local Islamic leaders--over 1,200 of whom 
have been dropped from the government payroll this year--back under 
government supervision.
    Attempts to inject aid into the government have met a major 
bottleneck: Last year the government managed to spend only 44 percent 
of money it received for development projects. The ministry of rural 
rehabilitation and development accounted for nearly half of the 
government's development spending, while key ministries like 
agriculture, energy and water, and public works could not execute their 
budgets. According to the ministry of finance, donor countries spent 
about $500 million on poorly designed and uncoordinated technical 
assistance, to little effect. The World Bank is designing a facility 
that will enable the government to hire the technical advisors it 
needs, rather than trying to coordinate advisors sent by donors in 
accord with their own priorities and domestic constituencies. The 
United States should support this initiative as well as a major crash 
program to increase the implementation capacity of line ministries.
                       the economy and narcotics
    Afghanistan is the poorest country in the world except for a 
handful of countries in sub-Saharan Africa. Policy makers focusing on 
``killing terrorists'' or ``holding democratic elections'' too often 
ignore this fundamental fact, which affects everything we try to do 
there. As numerous studies have documented over the years, Afghanistan 
has never received the investment of resources needed to stabilize it. 
International military commanders, who confront the results of this 
poverty every day, estimate that we need to ``double'' our resources. 
Doubling the economic resources going to Afghanistan would still leave 
it far behind Iraq, and such aid would be far more productive in 
Afghanistan. Major needs are accelerated road building, purchase of 
diesel for immediate power production, expansion of cross-border 
electricity purchase including deals with Pakistan for the south and 
east, investment in major water projects to improve the productivity of 
agriculture, development of the infrastructure needed for mineral 
exploitation, and a massive program of skills building for both the 
public and private sector.
    Afghanistan desperately needs to take on the threat from its 
narcotics economy in a way consistent with its overall struggle for 
security and stability. United States policy consisted first of aiding 
all commanders who fought the Taliban, regardless of their involvement 
in drug trafficking, and then, when the domestic war on drugs lobby 
raised the issue, to pressure the Afghan Government to engage in crop 
eradication. To Afghans this policy looks like rewarding rich drug 
dealers and punishing poor farmers, a perception skillfully exploited 
by the Taliban.
    The international drug control regime, which criminalizes 
narcotics, does not reduce drug use, but it does produce huge profits 
for criminals and the armed groups and corrupt officials who protect 
them. Our drug policy grants huge subsidies to our enemies. As long as 
we maintain our ideological commitment to a policy that funds our 
enemies, however, the second-best option in Afghanistan is to treat 
narcotics as a security and development issue. The total export value 
of opiates produced in Afghanistan has ranged in recent years from 30 
to 50 percent of the legal economy. Such an industry cannot be 
abolished by law enforcement. The immediate priorities are massive 
rural development in both poppy-growing and nonpoppy-growing areas, 
including roads and cold storage to make other products marketable; 
programs for employment creation through rural industries; and 
thoroughgoing reform of the ministry of the interior and other 
government agencies to root out the major figures involved with 
narcotics, regardless of political or family connections.
    News of this year's record crop is likely to increase pressure from 
the U.S. Congress for eradication, including aerial spraying. Such a 
program would be disastrously self-defeating. If we want to succeed in 
Afghanistan, we have to help the rural poor (which is almost everyone) 
and isolate the leading traffickers and the corrupt officials who 
support them.
                        is the glass half-full?
    Some policy makers and observers claim that critics of the effort 
in Afghanistan have excessive expectations and focus on challenges 
rather than achievements. They want to talk about how the glass is 
half-full, not half-empty. As this analysis shows, the glass is much 
less than half full. In any case, it does not matter how full the glass 
is, if someone manages to tip it over or pull out the table on which it 
is resting.
    The Afghan intelligence analysis quoted at the head of this report 
referred implicitly to the saying of Sun Tzu: ``Know your enemy, know 
yourself; One hundred battles, one hundred victories.''
    United States policy makers have misjudged Afghanistan and 
misjudged Pakistan; most of all, they have misjudged their own capacity 
to carry out major strategic changes on the cheap in an area they do 
not understand. While the Bush administration has sown war and 
strengthened Iran while claiming to create a ``New Middle East,'' it 
has failed to transform the region where the global terrorist threat 
began and persists. If the United States wants to succeed, we need to 
focus on this core task. To repeat once again, ``Until we transform the 
tribal belt, the United States is at risk.''

    The Chairman. Well, thank you very much, Dr. Rubin.
    We will have once again a 10-minute period of questioning 
by Senators who are present.
    Let me just say at the outset that you have placed a high 
focus, and deliberately so, on Pakistan and the thought that 
there may be as many as 50 leaders that are in that area that 
might be apprehended according to the communication that you 
receive. What is the basis of your intelligence or other 
reports that would lead you to believe that Quetta, in fact, is 
the headquarters, that there are that many persons of authority 
who act as a basis for destabilization of the neighboring 
country?
    Dr. Rubin. The statement I read to you is not my analysis. 
It is a statement of a senior western analyst from a NATO troop 
contributing country that has access to all intelligence 
reports of all agencies. Without--I cannot divulge some 
confidential communications that I have had with people in 
Kabul. Let me just say that while I was in Afghanistan I met 
with President Karzai, the commander of the coalition, the 
commander of NATO, the head of the NATO intelligence agency, 
the U.S. ambassador, the U.N. special representative of the 
Secretary General, and many other people, and I did not find 
anyone who disagreed with that assessment.
    The Chairman. Now, you mention in your paper that even if--
and this is a big if--the destabilization created by this nexus 
of al-Qaeda in Pakistan could be eradicated or even controlled, 
then you move to the basic point you made, that Afghanistan is 
one of the poorest countries in the world, rivaling at the 
bottom in per capita income only in some sub-Saharan African 
countries. Then as a part of that, I think you said only 5 
percent of the gross national product, which is a very small 
figure, is apparently utilized by the government. That is the 
budget that President Karzai and his legislature have. Is that 
correct?
    Dr. Rubin. Well, their actual budget for expenditure is 
somewhat larger because of foreign assistance. But basically, 
out of their own resources they have enough money to buy 
everybody in the country a case of Coca-Cola and then there is 
nothing left for schools, defense, and so on.
    The Chairman. So there really is a huge dependency upon 
these foreign funds, from whichever sources they may come. We 
have talked a little bit with General Jones about the 
insufficiency of those contributions, although he mentioned a 
$27 billion budget request to the international community over 
a 5-year period of time, indicating maybe $13 billion of that 
has been identified, maybe even $11 billion already expended.
    I raise this point because it seems to me most Americans 
taking a look at Afghanistan would not know just off the top of 
the head how poor the country is, how limited are the resources 
of this democracy that is now charged with providing services, 
and how dependent upon the international community, which we 
found in our previous testimony has rather fractionated chains 
of command.
    This is not meant to be terribly confusing because it arose 
from Enduring Freedom, the military operation of the United 
States. That continues. Now we have the ISAF operation of NATO 
involving the 37 countries that General Jones mentioned. But 
then also, as he pointed out in his chart, this overall ceiling 
and roof which is the United Nations command, has apparently 
administrative responsibility for each of the five pillars, 
only one of which the United States has a major responsibility 
over, although we contribute to each of the others.
    But there are at least three different situations there 
with which this Government in Afghanistan must cooperate or 
contend, as the case may be. Because of deficiencies in the 
training of police or security, as you say, it is very hard to 
eradicate drugs in an area in which conflict is proceeding, 
with maybe a reliance of some Afghans upon, if not Taliban, 
others, warlords or what have you, that provide security that 
the legitimate forces are not providing.
    Into all of this then, in your paper you mention that there 
is a severe shortage of electricity. This has been mentioned in 
Iraq frequently as very, very demoralizing.
    But describe, if you can, just that factor alone, keeping 
the lights on in the country?
    Dr. Rubin. Well, first, Mr. Chairman, if you like I can 
provide a little bit more background on the general 
reconstruction situation very briefly.
    The Chairman. Good.
    Dr. Rubin. First, the figures--let me clarify the figures 
that I had passed to General Jones. The estimate of $27.6 
billion is the estimate of the Government of Afghanistan, aided 
by international financial institutions, for its reconstruction 
needs looking forward for the next 5 years.
    The Chairman. I see.
    Dr. Rubin. There are some pledges for that. The $13 billion 
is the amount of funds that have been committed, that is 
contracts signed, since the government of President Karzai came 
to power. That is looking backward. So far, $11 billion of that 
has actually been disbursed.
    Now, much of that, first of all, was not spent on 
reconstruction. Much of it was spent on postwar humanitarian 
operations. That is the reason that we have had no new power 
plants, that we have very late start of road construction, 
relatively few road constructions, no major water projects in a 
country where water is the most scarce input into agriculture, 
which is the major economic activity, and so on. That is, the 
reconstruction funds are inadequate.
    Second is the efficiency of the way those reconstruction 
funds are used is very poor. Part of that I have to say is due 
to U.S. legislation which requires that our aid funds be spent 
on U.S. contractors, and that tremendously inflates the cost 
because U.S. contractors are not really able to operate in 
Afghanistan. So they spend a lot of money on overhead and then 
they just do subcontracting.
    As far as coordination is concerned, I will not go into 
some technical details. There is a fund through the World Bank 
to provide a trust fund--budgetary support--for the Afghan 
Government. As you know as members of our national legislature, 
one of your most important functions is passing the budget and 
oversight of public expenditure. That is your basic function 
actually. When a public expenditure is appropriated and carried 
out by foreigners, the legislature has very little to do 
actually.
    So it is important that, even if it is being funded by 
foreign aid, to the extent possible it be put through the 
budgetary mechanism so they can develop accountability and the 
capability of implementation. Again, some of our legislation 
prevents us from appropriating funds in that direction. We have 
made an international commitment in the Afghanistan Compact to 
try to move more in that direction and I hope we will do that.
    As far as electricity is concerned--oh, let me just say 
also, the model for coordinating this now, it is not under U.N. 
administration. Since the Government of Afghanistan is now 
fully established and has a constitutional structure and all 
three branches operating, if not particularly well, they are 
now in charge and there is a joint international Afghan body 
called the Joint Coordination and Monitoring Board, which is in 
charge of all this theoretically.
    Now, on electricity, there is a severe shortage of 
electricity. Some of the major cities purchase it from abroad, 
Herat from Iran, Mazar-e Sharif from Uzbekistan. On the one 
hand, Kabul city, the capital, which is the real political 
problem, will according to plan get electricity in 2 or 3 years 
via transfer from Central Asia, where there is a lot of 
hydropower. In the period until then, the only way to keep the 
lights on will be to continue to purchase diesel to run some 
very inefficient power plants.
    The United States was doing that. We have cut back on that 
this year. We have to get that money there this month or there 
will not be fuel for this winter. I do not have up-to-date 
information on where that stands, but that is key. There were 
riots in Kabul May 29. If there is no electricity this winter 
there could be much more severe riots.
    The Chairman. Well, you have clarified a little bit the 
chain of command. But with this government plus the 
coordinating group, say from the U.N., is there some overall 
business plan for how these five pillars General Jones 
described and that you have touched upon are to be 
administered? Is there some way in terms of our oversight that 
we could understand who is supposed to do what?
    Dr. Rubin. Well, the Afghan Government--and I actually 
worked on this project as an advisor--has issued its interim 
Afghan national development strategy----
    The Chairman. I see.
    Dr. Rubin [continuing]. Which was submitted to the London 
conference last January. That is available online. I can assist 
you in seeing that, and there is an implementation strategy 
attached to that. It still needs to be much better developed, 
but it is there for you to look at.
    The Chairman. And funded, so we have some idea.
    Dr. Rubin. Yes. It has been costed approximately. But I 
should note that it is difficult to estimate the costs because 
the cost depends on the mechanism of delivery. A school built 
by USAID costs $125,000. A school built by the Afghan 
Government costs $40,000 to $50,000.
    The Chairman. Thank you very much.
    Senator Sarbanes.

 STATEMENT OF HON. PAUL R. SARBANES, U.S. SENATOR FROM MARYLAND

    Senator Sarbanes. I thank you very much, Mr. Chairman.
    Dr. Rubin, we are very pleased to have you here. I have 
long held the view that we diverted our attention and resources 
away from Afghanistan far too early and that we are 
increasingly paying a price for that. It seems to me that they 
have put a government into place. They have chosen a leader 
through a constitutional process, which commands some 
credibility, and we need to provide stronger and continuing 
support in order to try to make a success out of it, and I am 
very much worried about what is taking place.
    Let me ask you, to what do you attribute the significant 
upsurge in Taliban insurgent activity that we have seen in 
recent times?
    Dr. Rubin. Thank you, Senator.
    The Taliban were not defeated; they were displaced, and 
they went to Pakistan. In Pakistan, they have reorganized 
themselves with very little hindrance, both in the tribal 
territories and in the areas they originally organized 
themselves. The Taliban were always a joint Afghan-Pakistani 
operation. As General Musharraf said in Kabul last week, the 
Government of Pakistan supported the Taliban. They helped 
create them and fund them. Their base--and in fact they have 
more political support in Pakistan than they do in Afghanistan.
    In addition--and of course, the United States focused 
solely on a narrowly defined, or mainly on a narrowly defined 
counterterrorism mission, namely looking from time to time for 
the top leaders of al-Qaeda, did not hold Pakistan's feet to 
the fire about harboring the Taliban.
    Now, in addition, the war in Iraq has created a new 
terrorist safe haven, a new proving ground and testing ground 
for tactics and strategy, and we have seen, even in news 
reports, as well as people tell me in intelligence reports, 
that there has been an exchange of information and knowledge 
between the two fronts, which has resulted in the use of 
improvised explosive devices in Afghanistan, the astronomical 
increase in them and of suicide attacks, and also the strategic 
objective of attacking non-American NATO troop contributors in 
order to weaken their political will, which worked to some 
extent in Iraq because of the lack of support, but is not 
working in Afghanistan.
    Senator Sarbanes. Well, if you were put in charge of the 
Afghan policy of our government, what would be your five-point 
plan to try to address this situation? What should we be moving 
to do to address this situation, which I think is of growing 
dimensions and growing concern?
    Dr. Rubin. Well, first I should say that I believe that the 
war in Iraq is not related to the war--has no relationship to 
the attack on us on September 11. I am mentioning this because 
the fact that our government has projected it as part of the 
war has unfortunately had a contaminating second order effect 
on the real theater in Afghanistan and Pakistan, in that 
unfortunately it has radicalized the Taliban and pushed them 
closer to global jihadis, with whom they had a troubled, 
somewhat troubled relationship in the past.
    So first I would try to refocus on the real politically, 
militarily, and in every way on the true source of global 
terrorism, which is in that region, and change our policies in 
the Middle East. That would have an effect in the area there.
    Second, within the theater itself I would confidentially--
so perhaps I should not say it here--but I would confidentially 
explain to Pakistan that it is very difficult for us to 
continue to give them military assistance and debt relief while 
they are harboring the people who are killing our troops, and 
that they have to be at least as active in taking down the 
Quetta shura as they were in combatting the insurgency, the 
Baluch nationalist insurgency in the same province, which 
resulted in their killing of a respected civilian leader, Nowab 
Akbar Bukti.
    I would overall at least double the amount of resources 
that we are spending on reconstruction in Afghanistan and 
explore how we could put more of those through the government 
budget.
    Third, I would--and here I want to commend the coalition 
for now having developed a coherent plan for reform of the 
police, but that will take several years before effects are 
really seen on the ground. I would develop an interim plan for 
both strengthening the police and strengthening the judiciary 
on an emergency basis by using as a transitional basis certain 
community institutions in Afghanistan, which would require a 
relatively small amount of funding--I spell this out in my 
paper--in order to support the creation of community policing 
and community-based dispute resolution and other kinds of 
justice mechanisms, which could then be linked to the judicial 
system.
    Fifth, fourth, I would focus on--I would work with the U.N. 
Office of Drugs and Crime to develop an internationally 
accepted list of drug kingpins and major drug traffickers in 
Afghanistan, have that adopted by the U.N. Security Council, 
and issue sanctions against them, combined with a political 
initiative within Afghanistan offering a conditional amnesty if 
they will bring their money into legitimate investment and make 
some kind of restitution, in a way analogous to transitional 
justice measures after a period of war on conflict when you do 
not seek to punish every crime, but have some kind of measures 
of reconciliation and restitution.
    Then finally, I would focus a great deal of the increased 
reconstruction assistance on the basic elements of 
infrastructure for employment creation and rural development.
    Senator Sarbanes. That all suggests to me that in your 
judgment the structures that are there to try to remedy the 
situation are acceptable or workable, because you have talked 
about moving more resources through the Government of 
Afghanistan, the coalition effort, and so forth. Is that a 
correct perception on my part?
    Dr. Rubin. In part. Of course, you limited me to five 
points. Of course all of those, in particular the Afghan 
Government requires major reform measures. I might note there 
is a document, the Afghanistan Compact, which the United States 
played a very important role in drafting and agreeing to, as 
well as the United Nations and 60 other countries and 
institutions, which lays out a program for the next 5 years, 
including detailed benchmarks on this reform.
    So the overall chapeau, the overall theme, I would say, is 
implementing the Afghanistan Compact. But obviously there are 
some things that need to be prioritized and those are the ones 
in my opinion that I mentioned.
    Senator Sarbanes. What is your reading on the coalition 
forces and how they are proceeding and their capabilities?
    Dr. Rubin. Of course I am not a military analyst. In my 
view, while we made serious errors in the beginning, analogous 
in a way to errors made in Iraq of not having enough forces and 
also not having the right mandate--we had no mandate--no force 
had the mandate to provide security for Afghans afterward. That 
has changed, I think largely due to the initiative of our 
commanders on the ground, who came to understand the situation 
better than some people in this town.
    At the moment, the coalition has shifted to a more 
appropriate type of footing, and of course is also handing off 
to NATO. I think both the coalition and NATO commanders would 
agree, and I think General Jones said this, that at this point 
the major task is not a military one. It is political and 
economic. The military can help
create some of the conditions for that, but if the civilian and 
diplomatic efforts are not there to follow through then the 
tactical victories of which he spoke recently will not be 
translated into strategic success.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Senator Sarbanes.
    Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    From a strategic point of view, would you have delayed 
going into Iraq, understanding that it might take the attention 
away from Afghanistan? In other words, if we had a decision to 
make, we could have gone any time we wanted to, the WMD came 
along, people got hyperventilated, we got to go in there, we 
got to do the job--as I look at it, if you step back, that 
could have been done some other time.
    So, in your opinion, was that a mistake to go in there, 
because it dissipated our resources and took the focus off of 
Afghanistan?
    Dr. Rubin. First, of course, I do not have a vote on the 
record to document what I thought at the time, but I believed 
that containment was working and there was no need to invade 
Iraq at any time, nor was there a legitimate reason to do so. I 
believe that when you are waging a war in which your national 
security is at stake you must identify your enemies very 
carefully.
    When we were attacked by Japan in 1941, we did not declare 
general war against totalitarianism and attack the Soviet Union 
at the same time. We were allied with the Soviet Union, which 
was not a particularly nice or democratic regime.
    Senator Voinovich. The answer to that is that you would not 
have done it under either WMD reasons or under change of 
regime. Okay.
    Dr. Rubin. May I add one other point?
    Senator Voinovich. Yes.
    Dr. Rubin. Which is, we are engaged in a political battle 
for our legitimacy as the leader of the world, and part of what 
has weakened us and has undermined for instance success in NATO 
is that our prestige and credibility is now at an all-time low. 
That is particularly the case in the Muslim world, where at the 
moment Osama bin Laden is more popular than our President in, 
for instance, Egypt and Saudi Arabia.
    Now, that means that--and part of the reason for that is 
many people, including Muslims, accepted that we had a 
legitimate right to attack, to counterattack against the people 
who attacked us, but when we then attacked a country that had 
nothing to do with September 11, but that had a lot of oil and 
that was in a sense a strategic opponent of us on some 
political issues, in a sense we were carrying out, we were 
implementing the image of us that al-Qaeda was trying to 
project, and that caused us to lose a great deal of credibility 
and, frankly, it makes the administration's rhetoric about what 
we are trying to accomplish in the world not credible to the 
overwhelming majority of people in the Muslim world and 
elsewhere.
    Senator Voinovich. Second, you made it very clear that if 
we are going to be successful against the Taliban that 
President Musharraf and the Pakistanis are really going to have 
to cooperate with us and get serious. What argues against their 
not doing that? In other words, is Musharraf fearful that if he 
really gets in and does the job against the Taliban that he is 
going to jeopardize his life or his future, political future, 
on the one hand? On the other is, what incentive does he have 
to go in there and do what we want him to do?
    Dr. Rubin. I thank you for asking that question, because I 
would not like to, under the pressure of time, leave the 
impression that I am broadly against Pakistan or against 
President Musharraf. I believe that President Musharraf is 
personally courageous and he is not influenced by fears of what 
might happen to him personally. But Pakistan's national 
interest is much more complicated than sometimes we understand.
    Pakistan has been, ever since its inception, locked in a 
conflict with India, a country which is eight times larger and 
more economically dynamic and also a fellow owner of nuclear 
weapons. In addition, Afghanistan has never recognized the line 
separating Afghanistan from Pakistan and there has always been 
a hostile relationship between the Governments of Afghanistan 
and Pakistan. Even the Taliban refuse to recognize that border 
between Afghanistan and Pakistan.
    Pakistan's key internal problem has been integrating the 
ethnic minorities that live along the border with Afghanistan, 
the Baluch and the Pashtuns, and it fears that--and Afghanistan 
has at times in the past, sometimes with Soviet assistance, 
stirred up trouble in that area.
    For all of these reasons, Pakistan has used the funding and 
support of mujahedin, jihadi groups, and what we call 
terrorists as an instrument, as a force multiplier. They have 
managed to keep 700,000 Indian troops tied down in Kashmir, 
away from the border with Punjab, at a very low cost by use of 
these groups. Similarly, they imposed a high cost on the Soviet 
Union and so on.
    Therefore this is something that has become very well 
integrated into their foreign policy because of some real 
security concerns that they have. We have to help them address 
those security concerns with regard to both India and 
Afghanistan.
    Senator Voinovich. I take it from what you have said that 
you feel that the resources that are really needed coming from 
the United States ought to be redoubled in terms of 
reconstruction to indicate a real seriousness about really 
making a difference in Afghanistan.
    Then, how important is it to our allies--I am pleased that 
they have been able to join us there and send their troops, but 
how urgent is it for them in terms of their own economic or 
their own security interests to be there and that it be 
successful? Or is this just something they are doing to show 
their colors and they are not as committed to seeing that 
Afghanistan be successful?
    Dr. Rubin. Well, I appreciate that question as well because 
it enables me to clarify something. What I actually meant is 
the total international resources devoted to Afghanistan should 
be doubled. That would mean doubling our contribution, but it 
would mean doubling everyone else's as well, not just ours.
    I think if you look at the overall foreign policy 
commitments of many of our allies there, you will see that it 
is a much higher priority for them than it is for us, relative 
to other things. For instance, Afghanistan is by far the 
largest international commitment of the Government of Canada, 
both in terms of foreign assistance and in terms of troops. The 
same is true for the Netherlands. The same is true for the 
United Kingdom with the exception of Iraq. I believe it may 
also be true to some extent for Germany. Certainly it is one of 
the largest military operations that they have, though it is 
small. So it is important for them.
    Senator Voinovich. It is important. And why is it important 
for them?
    Dr. Rubin. I think mainly it is important to them because 
of their relationship with us, because they see that--they 
believe that a secure United States is essential to their own 
security. And despite the very strong disagreements that many 
of them have over Iraq and other aspects of our policy, they 
really very much do want to stand with the United States 
whenever they can.
    Some of them also have been attacked, of course.
    Senator Voinovich. Also they--do you think that they are 
going to stay at the wheel on this when they start encountering 
deaths and so forth? Some of them I think thought they were 
going over there and do a little peacekeeping and now they are 
in areas where this is real serious and they are losing troops 
there. Do you think they are going to have the willpower, the 
staying power, to say we are going to stay in there in spite of 
the fact that we are losing people and maybe back home it might 
be unpopular?
    Dr. Rubin. Certainly there is controversy over it in some 
countries. But--and I have traveled to many of these countries. 
I should also say Spain, it is very important for them. The 
governments in these countries are making very serious efforts 
to explain the importance of this to their people. That is why 
President Karzai is addressing the Canadian parliament today.
    My impression is that, while I cannot predict exactly what 
will happen, that the governments and the majorities there are 
firmly--the governments are very firmly committed to doing 
this. The people do not always understand exactly the reasons 
for it, but the governments are making efforts to explain it 
because it is an important commitment to them.
    Senator Voinovich. I will be interested. As I mentioned, we 
will be at that NATO parliamentary meeting. It might be good to 
look at an aspect of which countries are there and talk to 
their parliamentarians and try to get a feel for how committed 
they are to this and do they understand the importance to their 
respective countries.
    Dr. Rubin. Well, I have addressed the NATO 
interparliamentary assembly actually on two occasions, and I 
have found that there was a rather high level of commitment, 
though they had a number of questions quite similar to the ones 
that you have posed today.
    Senator Voinovich. Thank you very much.
    Dr. Rubin. Thank you.
    The Chairman. Well, thank you very much, Senator Voinovich, 
for your questions, and likewise for your service on the 
interparliamentary work with NATO. I would add that, as we all 
know, there will be a summit of NATO nations in Riga in the 
latter part of November in which my understanding is this is 
likely to be a part of the agenda. We have been having some 
informal meetings to try to think through what ought to happen 
at that meeting.
    But one thing that will happen, I suspect, is the 
discussion that General Jones alluded to this morning, and that 
is that the military budgets total of many of our NATO allies 
have continued to diminish as a percentage of their gross 
national product, and that is not a new factor. This has been 
adrift for a while. So even when there is commitment to do some 
things, the resources, particularly with expeditionary forces 
that can go outside the borders of the country, are still very, 
very limited. This is a predicament for NATO as an 
organization, quite apart from its commitment in Afghanistan.
    But I appreciate the point you have made in response, 
because it is a very important one in terms of the continuity. 
The thing that keeps running through my mind as I listen to 
this, and I do not want to be adhering simply to the budget, is 
that it is the most important aspect, but the needs are so 
tremendous here in terms of money and, as you have said, beyond 
that, how the money is spent organizationally, how it actually 
hits the ground in Afghanistan, how it buttresses the self-
government of that country and its fledgling democracy and the 
sophistication of that distribution.
    You have mentioned an overall plan coming from the 
Government itself, of Afghanistan, which you have referenced 
today. But it would seem to me this is going to be a very 
important aspect of our continuing debate. Otherwise we are 
likely to have debate on the floor or hearings in which we 
lament certain parts of what we have talked about today--lack 
of training of police or security people, why the warlords are 
still playing such a role, whatever happened to the al-Qaeda, 
and so forth. These are very, very important items, but 
underlying all of this has to be the institution-building that 
is going to require money, and from a country, as you started 
out with, that is extremely poor and that has from its own 
resources so little to deal with, although we all hope that 
will grow. I think in your paper you mention you can have 
exponentially large rises in the percentage of GNP in a country 
when the base is that small. So that is an encouraging factor.
    But I thank you very much for your paper and your 
testimony. They have been most informative and helpful to us.
    Senator Voinovich. Mr. Chairman, could I just ask one last 
thing?
    The Chairman. Of course.
    Senator Voinovich. You alluded to the issue of the drug 
problem in the United States and I got the impression that some 
of these drugs are coming into the United States.
    Dr. Rubin. Well, I perhaps should have said the developed 
world. I believe actually the bulk of the narcotics produced in 
Afghanistan are consumed in Iran and Pakistan.
    Senator Voinovich. So that is why the Iranians are so 
interested in making sure it stops.
    Dr. Rubin. Yes.
    Senator Voinovich. The reason I bring it up is I just had 
our local FBI director visit with me from Cincinnati and he 
said, ``Senator, the issue of terrorism is one that we are 
gravely concerned about.'' But he said, ``The biggest issue 
that we have got here in the United States that we are not 
paying attention to is the drug problem, and that our resources 
are being kind of spread out and we really have got to look at 
that.'' It is still there and we need to deal with it and we 
are not directing our attention to it.
    I think you remember the other hearing we had a year or so 
ago where we had the folks in here and they were talking about 
how active the Russian mafia is in the United States and seemed 
to be doing about whatever they wanted to do because we do not 
have the resources to deal with that problem.
    So from my perspective you are saying the biggest market is 
in those countries you just mentioned.
    Dr. Rubin. That is in physical quantity. The biggest market 
in money is in Europe and of course in the United States.
    If I may add, if you do not mind my mentioning something 
that I heard in the other house yesterday, Dr. Walt, a 
Republican from Texas, mentioned at the hearing yesterday that 
in his view we had failed to learn the lessons of Prohibition, 
which of course provided the startup capital for organized 
crime in the United States, and that in effect by turning drug 
use into a crime we are funding organized crime and insurgency 
around the world, and it may be that we need to look at other 
methods of regulation and treatment.
    Senator Voinovich. Thank you.
    The Chairman. Thank you, Senator Voinovich. It is a 
fascinating thought that you just imparted, that although the 
bulk of the drugs may be utilized by Iran and Pakistan, that 
the greatest value for those that are not imbibed by these 
countries comes from Europe and the United States. Why? Because 
the people surely do not receive it for free, but what is the 
distribution? Why are Pakistan and Iran so afflicted by drugs?
    Dr. Rubin. Well, they are closer. Basically, the price--the 
cost of production is a negligible portion of the price of 
narcotics.
    The Chairman. So it is transportation.
    Dr. Rubin. No, no. It is risk because it is illegal. If it 
were not illegal it would not be--it would be worth hardly 
anything. It is only its illegality that makes it so valuable.
    The Chairman. Another fascinating topic.
    Well, we thank you again for your helpfulness, Dr. Rubin.
    The hearing is adjourned.
    [Whereupon, at 11:54 a.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
